<html>
<title> - IMPROVING NUTRITION FOR AMERICA'S CHILDREN IN DIFFICULT ECONOMIC TIMES</title>
<body><pre>[Senate Hearing 111-241]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-241

                   IMPROVING NUTRITION FOR AMERICA'S
                  CHILDREN IN DIFFICULT ECONOMIC TIMES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION


                               __________

                             MARCH 4, 2009

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov




                  U.S. GOVERNMENT PRINTING OFFICE
54-565 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                       TOM HARKIN, Iowa, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
KENT CONRAD, North Dakota            RICHARD G. LUGAR, Indiana
MAX BAUCUS, Montana                  THAD COCHRAN, Mississippi
BLANCHE L. LINCOLN, Arkansas         MITCH McCONNELL, Kentucky
DEBBIE A. STABENOW, Michigan         PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES E. GRASSLEY, Iowa
ROBERT P. CASEY, Jr., Pennsylvania   JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado

                Mark Halverson, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                 Vernie Hubert, Minority Chief Counsel

                                  (ii)







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Improving Nutrition for America's Children in Difficult Economic 
  Times..........................................................     1

                              ----------                              

                        Wednesday, March 4, 2009
                    STATEMENTS PRESENTED BY SENATORS

Harkin, Hon. Tom, U.S. Senator from the State of Iowa, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Bennet, Hon. Michael F., U.S. Senator from the State of Colorado.     4
Casey, Hon. Robert, Jr., U.S. Senator from the State of 
  Pennsylvania...................................................    23
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     3
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    16

                                Panel I

Bartlett, Susan, Senior Associate, ABT Associates, Cambridge, 
  Massachusetts..................................................     7
Boldt, Connie, School Food Director, Knoxville Community School 
  District, Knoxville, Iowa......................................     8
Wilson, Katie, School Nutrition Director, Onalaska Public 
  Schools, Onalaska, Wisconsin...................................     5

                                Panel II

Hecht, Kenneth, Executive Director, California Food Policy 
  Advocates, Oakland, California.................................    30
Nolan, Lucy, Executive Director, End Hunger Connecticut, 
  Hartford, Connecticut..........................................    33
Paige, David, M.D., Professor, Johns Hopkins Medical School, 
  Baltimore, Maryland............................................    27
                              ----------                              

                                APPENDIX

Prepared Statements:
    Harkin, Hon. Tom.............................................    50
    Bennet, Hon. Michael F.......................................    52
    Roberts, Hon. Pat............................................    53
    Bartlett, Susan..............................................    54
    Boldt, Connie................................................    72
    Hecht, Kenneth...............................................    76
    Nolan, Lucy..................................................    84
    Paige, David.................................................    92
    Wilson, Katie................................................    98
Document(s) Submitted for the Record:
    Campaign To End Obesity, prepared statement..................   106
    National Milk Producers Federation, prepared statement.......   110
    National WIC Association, prepared statement.................   117
    Oregon Hunger Relief Task Force, prepared statement..........   122
Question and Answer:
Harkin, Hon. Tom:
    Written questions for Kate Wilson............................   126
    Written questions for Susan Bartlett.........................   126
    Written questions for Ken Hecht..............................   127
Lincoln, Hon. Blanche L.:
    Written questions for Connie Boldt...........................   129
    Written questions for David Paige............................   129
    Written questions for Ken Hecht..............................   130
Bartlett, Susan:
    Written response to questions from Hon. Tom Harkin...........   131
Boldt, Connie:
    Written response to questions from Hon. Blanche L. Lincoln...   136
Hecht, Ken:
    Written response to questions from Hon. Tom Harkin...........   139
    Written response to questions from Hon. Blanche L. Lincoln...   144
Wilson, Katie:
    Written response to questions from Hon. Tom Harkin (with 
      attachments)...............................................   148
    Written response to questions from Hon. Blanche L. Lincoln...   151
Follow on questions for the record, USDA.........................   167


 
                   IMPROVING NUTRITION FOR AMERICA'S
                  CHILDREN IN DIFFICULT ECONOMIC TIMES

                              ----------                              


                        Wednesday, March 4, 2009

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The committee met, pursuant to notice, at 9:36 a.m., in 
room 216, Hart Senate Office Building, Hon. Tom Harkin, 
Chairman of the committee, presiding.
    Present or submitting a statement: Senators Harkin, Casey, 
Klobuchar, Bennet, Chambliss, and Thune.

 STATEMENT OF HON. TOM HARKIN, U.S. SENATOR FROM THE STATE OF 
   IOWA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Harkin. The Senate Committee on Agriculture, 
Nutrition, and Forestry will come to order.
    We welcome everybody here. It looks like there is a little 
bit of interest maybe in the topic we are on this morning.
    Today's hearing continues this committee's ongoing efforts 
to address issues in child nutrition and health. In our first 
hearing in December of last year, I spoke very bluntly about 
the real and damaging long-term health problems that we face in 
this country. Overweight, obesity, even among our children have 
reached epidemic levels in America, raising the specter that 
our children will have shorter life spans than we have for the 
first time in history.
    Compounding these problems is a health care system that is 
ill-equipped to prevent disease. I feel we must reorient our 
health care system so that it focuses on preventing diet-
related illnesses and promoting good nutrition and wellness.
    As the witnesses in our last hearing outlined very clearly, 
USDA's Child Nutrition Programs are a tremendous opportunity to 
make a lasting impact on the nutrition and eating habits of our 
children. A stronger targeted investment in those programs must 
be a part of a comprehensive Federal response to poor nutrition 
among our children.
    Our witnesses today will present us with some of the 
particular challenges and opportunities that we face in 
improving child nutrition, both when kids are in school and 
when they are not.
    Again, I emphasize that we must start early. The WIC 
Program has long been one of our nation's most effective public 
health programs and has proven itself time and time again. Our 
child care settings also present us with a unique and often 
overlooked opportunity to reach children before they enter 
kindergarten and expose them to the right kinds of foods and 
eating habits.
    With over 30 million kids eating federally assisted 
lunches, the National School Lunch Program is perhaps our best 
opportunity to improve child nutrition and health. Research has 
shown that children who eat school lunches have higher intakes 
of a range of essential vitamins and minerals than children who 
consume lunches from other sources.
    However, while the quality of school meals has gradually 
improved over the years, much work remains to be done to bring 
them in line with the dietary guidelines. We know, for example, 
that two-thirds of elementary schools offer meals that exceed 
the standards for saturated fat, which is commonly linked to 
heart disease.
    One of the solutions is to improve school meals, offering 
foods that have more of the kind of what I call the good stuff, 
the vitamins and minerals, less of the bad stuff, less sugar, 
sodium, fats. That means more low-and no-fat milk, leaner 
meats, whole grain products, fruits and vegetables, 
particularly fresh fruits and vegetables.
    Now, while that may seem like an easy recommendation in 
principle, many school districts will tell you that it is much 
more difficult to put this into practice for a variety of 
reasons, one of them being cost. Fresh fruits and vegetables 
and whole grains tend to cost more than the less-healthful 
alternatives, so it is not surprising that some school food 
service directors find it difficult to offer these foods given 
their limited budgets, budgets which are stretched thin, and 
especially in an economic downturn.
    That being said, there are school districts out there that 
are working within their current budget and still going the 
extra mile for their kids by creating an overall nutrition 
environment. This teaches kids the importance of eating 
healthy, provides more healthful meals for them to eat, 
encourages healthy living by requiring regular physical 
activity and education. We will hear testimony today from one 
of those from my home State of Iowa, in Knoxville.
    Perhaps the most important question that it raises for this 
committee is how Congress can best help places like Knoxville 
to continue their good work and to help other districts to 
emulate what they are doing. One welcome sign of help came in 
the President's recently released budget in which the President 
proposed $1 billion per year in additional funding for child 
nutrition. This is a strong indication of how serious the new 
administration is about ending childhood hunger and teaching 
healthy eating habits at an early age. Now Congress must make 
good on this proposal by dedicating real resources in our 
budget.
    A significant investment in the Child Nutrition 
Reauthorization by Congress would be its own downpayment on 
comprehensive health care reform that would acknowledge the 
very real budget difficulties that school districts, day care 
centers, and other providers face while also ensuring that kids 
are getting the most balanced, nutritious meals possible. I 
have said many times, and I will keep saying it, that if we are 
going to have meaningful health reform in this country, what 
our kids eat and how they exercise and whether they exercise is 
a big part of health reform in this country.
    So I look upon our challenge this year in this committee to 
reauthorize the child nutrition bill as being a part of the 
whole health care reform in America by getting to these kids 
early in life and making sure they get the best possible foods 
and exercise.
    So I look forward to working with my Ranking Member and 
good friend, Saxby Chambliss, and all the members of this 
committee to get a good child nutrition bill that both does the 
right funding levels, but also perhaps does some redirection 
and guidance and support for healthier meals in our schools, in 
our child care centers, in our adult care facilities, and also 
in the Women, Infants, and Children Supplemental Feeding 
Program.
    [The prepared statement of Hon. Tom Harkin can be found on 
page 50 in the appendix.]
    Chairman Harkin. With that, I will turn to our Ranking 
Member, Senator Chambliss.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Thank you very much, Mr. Chairman.
    Let me first of all thank our witnesses for being here to 
help us deal with this critical issue of reauthorizing our 
Child Nutrition Program. I want to particularly welcome my 
school nutrition folks from Georgia who are here and who do 
such a great job of making sure that Georgia's children are 
prepared to be educated.
    Mr. Chairman, I want to thank you for holding this hearing 
today and I appreciate the bipartisan approach that we have 
taken on nutrition issues in the past and look forward to 
continuing to work together as we reauthorize the Child 
Nutrition Programs.
    I would like to thank today's witnesses for their 
thoughtful testimony regarding school meals, the Summer Food 
Service Program, the Special Supplemental Feeding Program for 
Women, Infants, and Children, and the Child and Adult Care 
Feeding Program. These programs have a proven track record of 
not only alleviating hunger in the United States, but also 
improving the nutritional intake of children and their 
families.
    Given the current state of our nation's economy, we are 
seeing increased demand for these programs. Many times, the 
School Breakfast and Lunch Programs are the only source of food 
for many students. Today's witnesses will shed important light 
on the challenges that that program faces in providing healthy 
meals on a day-to-day basis.
    As we strive to improve the country's nutrition safety net, 
the committee values and depends on the testimony from experts 
on the front lines of the fight against hunger. I know from the 
schoolteachers in my family of the importance of good 
nutrition. Good nutrition is not only important for good 
health, but also for proper cognitive development.
    According to the Georgia Department of Education, over 
1,177,000 lunches and 499,000 breakfasts are served each day in 
Georgia schools. I applaud the dedication of school nutrition 
providers and their efforts to feed kids healthy meals and 
recognize the very early and significant influence they have in 
developing good nutrition habits in school children.
    As the Agriculture Committee moves forward in the 
reauthorization process, my goal is to ensure that all eligible 
children can easily access these important nutrition programs. 
I believe that all of us on the committee also share the goal 
of better utilizing these programs as tools to improve 
nutritional intake as well as combat hunger.
    And just in closing, let me say that we made a number of 
changes in the School Lunch Program in our farm bill and we 
tried to make sure that we could take advantage of a lot of 
local situations in providing fruits and vegetables at the 
local level for our school nutritionists. We hope that with the 
implementation of that program, that all of our child nutrition 
folks across the country, both in schools and out of schools, 
are going to be able to take advantage of that and make sure 
that not only children benefit, but when the children benefit 
from that program, farmers benefit from it. So it is simply a 
win-win proposition that we inserted in the farm bill and we 
look forward to seeing the implementation of that as we move 
ahead.
    Mr. Chairman, I look forward to hearing from our witnesses. 
Thank you.
    Chairman Harkin. Thank you very much, Senator Chambliss.
    Did you have anything, Senator Bennet?

  STATEMENT OF HON. MICHAEL F. BENNET, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Bennet. Mr. Chairman, thank you. I just want to say 
thank you to you for holding this hearing. Thanks for having 
me. I am telling you, as a former school superintendent and the 
father of three school-age kids, I know how important this is. 
Kids can't learn if they are hungry during school. So I feel 
like it is very appropriate that this is my first hearing with 
you and I would just ask that the remainder of my opening 
statement be included in the record.
    [The prepared statement of Hon. Michael F. Bennet can be 
found on page 52 in the appendix.]
    Chairman Harkin. Thank you very much, Senator Bennet, and 
welcome to the committee. It is going to be a good year and we 
are on something that you can help us a lot on because of your 
experience as being a former superintendent, on this whole 
issue of school lunches and school breakfasts, so we look 
forward to your involvement in the development of this 
reauthorization bill.
    We will turn to our first panel. Dr. Katie Wilson has been 
a School Food Service Director for 21 years, has a Bachelor's 
degree in dietetics, a Master's degree in food science 
nutrition, and a Ph.D. in food service. Katie recently served 
as the Chair for the School Nutrition Association Nutrition 
Standards Task Force, developing nutrition standards for 
reimbursable meals and foods sold outside the meal program 
throughout the school day. Dr. Wilson is presently serving as 
President of the School Nutrition Association and she hails 
from Onalaska, Wisconsin.
    Next will be Dr. Susan Bartlett, a Senior Associate with 
Abt Associates, a public policy research and consulting firm. 
Dr. Bartlett has over 30 years of experience conducting policy 
research on national and State programs designed to assist low-
income individuals and families. She has directed numerous 
studies of USDA's Food and Nutrition Assistance Programs, 
including the National School Lunch and School Breakfast 
Programs, Supplemental Nutrition Assistance Program, the Food 
Stamp Program, and the WIC Program. Dr. Bartlett holds a Ph.D. 
in urban and regional studies from MIT.
    Next will be Connie Boldt, who has served as the School 
Food Service Director for the Knoxville Community School 
District in Knoxville, Iowa, for the past 12 years. Prior to 
joining that school district, she was the Director of Catering 
Services at Central College in Pella, Iowa. She graduated from 
Central College and received her graduate degree from Iowa 
State University in 1986.
    We welcome you here. Your statements will be made a part of 
the record in their entirety and we would ask if--the clock 
probably says 5 minutes, but if it goes to seven or eight, that 
is fine, but if you keep it between five and 10 minutes, I 
would certainly appreciate it so we can kind of have a give and 
take.
    We will go in the order in which I just announced, so we 
will start with you first, Dr. Wilson. Welcome and thank you 
for your service as President of the School Nutrition 
Association.

STATEMENT OF KATIE WILSON, SCHOOL NUTRITION DIRECTOR, ONALASKA 
              PUBLIC SCHOOLS, ONALASKA, WISCONSIN

    Ms. Wilson. Thank you. Chairman Harkin, Senator Chambliss, 
and members of the committee, I am Dr. Katie Wilson, President 
of the School Nutrition Association and a School Nutrition 
Director in Onalaska, Wisconsin. With me today is our SNA 
executive team, our legal counsel, Marshall Matts, and as you 
see, a number of my colleagues.
    We are meeting here at a time of unprecedented economic 
challenge for our country. School food programs are a key part 
of the vital safety net for a growing number of our school 
children. For some students, school breakfast is the first meal 
they have eaten since the day before. There are students who 
come to school on Monday not having eaten since Friday.
    As a country, we have gone from discussing millions to 
billions to trillions of dollars, simply overwhelming for most 
of us, yet at the same time, each of us in a Child Nutrition 
Program sit at our desks and struggle to balance pennies. The 
average cost of producing a school lunch is $2.92, based on our 
internal study. Currently, local schools receive a Federal 
reimbursement of $2.57 for every lunch provided to a child with 
income below 130 percent of the poverty line. On average, our 
reimbursement for a free meal is 35 cents less than it costs to 
produce that meal. It is hard to believe, but many families 
cannot afford the 40 cents for lunch or the 30 cents for 
breakfast that is charged for a reduced-price meal. We see 
checks for just a few dollars that are returned due to 
insufficient funds.
    While we have dramatically improved the appeal and 
nutritional quality of school meals, there are no Federal 
guidelines for foods and beverages sold by schools outside the 
cafeteria. This can take the emphasis off nutrition. We are 
adding more fruits, vegetables, and whole grains to both 
reimbursable and competitive food offerings, but this further 
increases the cost of preparing those meals. We need the money 
to offset these costs.
    School administrators are also short of funds and are 
therefore charging School Nutrition Programs more and more of 
the overhead costs of running the entire school. This is called 
an indirect cost of the program. In short, money that you 
appropriate for school meals may be used for energy, 
telephones, or even personal costs in a principal's office. 
Neither the statute nor the regulations put any cap on indirect 
costs, and some districts pay as much as 15 to 18 percent of 
their budget.
    Free and reduced-price meal certification is used for many 
services provided in the school, including Title I funding, yet 
the school food service account pays the full cost of 
collecting and keeping that information.
    Mr. Chairman, as you approach reauthorization, we ask the 
Congress to take a comprehensive look at the Federal Child 
Nutrition Programs and realize that we are struggling with 
competing needs and policy goals.
    We support a consistent national interpretation of the 
dietary guidelines for two reasons: Science and cost 
considerations. All children need the same nutrients to grow no 
matter where they live in this country--Iowa, Georgia, or 
California. Why would we allow 50 or more different 
interpretations of the dietary guidelines when it comes to the 
National School Lunch and Breakfast Programs? When USDA changes 
the meal guidelines, all vendors change their specifications to 
accommodate the latest science. If, however, there are 50 
different markets and not just one, it greatly increases the 
cost of doing business. This increased cost is passed on to my 
program. We also would like to see, first and foremost, the 
increased reimbursement for all lunches served by 35 cents and 
20 cents for breakfasts. We need the Federal reimbursement rate 
to be updated twice a year to keep pace with inflation, as 
opposed to the current annual adjustment. Many vendors escalate 
their prices monthly.
    The free meal program should be expanded to include all 
children who fall below the WIC income guidelines, or 185 
percent of the poverty level. If the family qualifies for WIC, 
they should qualify for free meals.
    Lastly, ten cents in USDA commodities for each Breakfast 
Program is needed. We receive about 20 cents in commodities for 
each school lunch, but there is no commodity support for 
breakfast.
    Considering nutrition standards, whatever that standard is, 
it must be applied consistently throughout the school 
environment. Students must not be allowed to be able to buy 
something in the gym that we cannot sell in the cafeteria. This 
is a conflicting message about what is healthy.
    In addition, we ask that you require USDA to implement the 
Dietary Guidelines for Americans in a practical and consistent 
manner all over the country. We know we are asking for a lot, 
and we realize that it makes your life more complicated, but 
our children need this in order to be well nourished and 
prepared to learn.
    In closing, we would like to thank the Senate for its 
leadership in providing recent equipment assistance funding. 
While school nutrition personnel are great innovators in 
serving wholesome foods, they cannot efficiently serve meals if 
our equipment is obsolete or in need of repair.
    Mr. Chairman, we have attempted to outline a few funding 
issues and other priorities today. We will provide staff with a 
list of administrative changes that could make the programs 
more effective and easier to administer. We greatly appreciate 
this hearing and your commitment to our children and child 
nutrition. The time to act is now and the funding is 
imperative. Thank you.
    [The prepared statement of Ms. Wilson can be found on page 
98 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Wilson.
    Now we will turn to Dr. Bartlett. Dr. Bartlett, welcome. 
Please proceed.

STATEMENT OF SUSAN BARTLETT, SENIOR ASSOCIATE, ABT ASSOCIATES, 
                    CAMBRIDGE, MASSACHUSETTS

    Ms. Bartlett. Thank you, Mr. Chairman, for the opportunity 
to address this committee. My name is Susan Bartlett and I am a 
Senior Associate at Abt Associates, headquarters in Cambridge, 
Massachusetts. Abt Associates is a public policy research and 
consulting firm that applies scientific research, consulting, 
and technical expertise to a wide range of issues in social, 
economic, and health policy.
    Under contract to the Food and Nutrition Service in the 
Department of Agriculture, Abt carried out the School Lunch and 
Breakfast Cost Study II, which was designed to estimate the 
national average cost of producing reimbursable meals in the 
National School Lunch Program and the School Breakfast Program. 
The study, which was carried out during the school year 2005 to 
2006, provides a detailed examination of the cost of producing 
reimbursable meals in the school meals program and was designed 
to allow FNS to assess the adequacy of reimbursement rates. 
Today, I would like to present key findings from this study.
    The study was carried out in a nationally representative 
sample of 120 school food authorities across the United States. 
Within these districts, we selected a representative sample of 
approximately 350 schools and collected extensive data on the 
costs and revenues associated with producing school meals 
through reviews of financial statements, meal production 
records, recipes, invoices, observations of meals taken by 
students, and interviews with SFA and school district 
officials.
    The study examined the costs of meals charged to the SFA's 
accounts, or the reported cost. It also examined the unreported 
costs, which are the costs incurred by the school district in 
support of SFA operations but not charged to the SFA account. 
Together, the reported costs plus the unreported costs 
represent the full costs of meal production.
    I think one point about the methodology that should be 
noted here, because I think we may discuss it more later, is 
that the methodology allocates the SFA administrative costs and 
overhead to all production, so including lunches, breakfasts, 
and non-reimbursable meals, which includes competitive foods.
    So key findings from the study. No. 1, in most SFAs, the 
reported costs of producing lunches were less than the Federal 
subsidy for free lunches. The national mean cost of producing a 
reimbursable lunch in the 2005 to 2006 school year was $2.36 
and the subsidy for free lunches at the time, which includes 
the cash as well as commodity assistance, was $2.51. As a 
result, in almost 80 percent of SFAs, the reported cost was 
less than the Federal subsidy.
    However, in contrast, in most SFAs, the reported costs of 
producing reimbursable breakfasts were greater than the Federal 
subsidy. The national mean cost of a reimbursable breakfast was 
$1.92, again in 2005 to 2006, compared to the severe need 
reimbursement rate of $1.51. As a result of this, in almost 
two-thirds of the SFAs, the cost of producing breakfast 
exceeded the reimbursement. In only a third of the SFAs the 
costs were less than the subsidy.
    For the average SFA, revenues from reimbursable meals 
exceeded the reported costs of producing those meals. On 
average, revenues exceeded costs by about 15 percent. In 
contrast, revenues from non-reimbursable meals fell short of 
the cost of producing those meals by approximately 30 percent. 
While reimbursable lunches and breakfasts taken together 
generated a surplus, this is due entirely to the surplus 
generated by reimbursable lunches.
    Consistent with the relationship between the subsidy rate 
and the reported meal costs, revenues from reimbursable lunches 
exceeded costs of producing them by an average of 16 percent. 
Revenues from breakfasts fell short of the cost of producing 
those meals by an average of 4 percent.
    If we look at the full cost of producing school lunches, we 
come to somewhat different findings. Nearly all school 
districts provide in-kind goods and services to SFAs that are 
not charged to school food service accounts and therefore go 
unreported. In most SFAs, the full cost of producing 
reimbursable lunches, including these unreported costs, 
exceeded the costs. In 68 percent of the SFAs, the full cost of 
a reimbursable lunch was more than the subsidy.
    Looking across all school meals programs, the SFA revenues 
fell considerably short of covering these full costs. On 
average, revenues covered just over 80 percent of full costs. 
Costs exceeded revenues for reimbursable lunches, breakfasts, 
as well as competitive meals programs.
    Those are the key findings on our cost findings. Thank you 
very much, and I would be happy to answer any questions on 
methodology or results.
    [The prepared statement of Ms. Bartlett can be found on 
page 54 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Bartlett.
    Now we will turn to Ms. Boldt.

  STATEMENT OF CONNIE BOLDT, SCHOOL FOOD DIRECTOR, KNOXVILLE 
           COMMUNITY SCHOOL DISTRICT, KNOXVILLE, IOWA

    Ms. Boldt. Good morning, Chairman Harkin, Senator 
Chambliss, and members of the committee and other guests. Thank 
you for giving me the opportunity to tell you about the 
Knoxville Community School District's experience with the 
HealthierUS School Challenge.
    I am Connie Boldt, the Food Service Director for the 
district, located in Knoxville, Iowa. Knoxville is located in 
south-central Iowa with a population of approximately 10,000. 
The school district has five buildings and serves about 1,600 
lunches daily.
    Knoxville's elementary schools, East, West, and North Star, 
each receive the HealthierUs School Gold Award. The Knoxville 
School District, supported by the Board of Education and the 
administration, promotes healthy lifestyles for students, 
staff, and families. The district feels this is a part of the 
total learning environment and will contribute to academic 
achievement as well as positive lifestyles.
    Serving healthy meals that students will eat isn't the 
easiest thing to do. It requires money and time. But the 
benefits for classroom achievement and healthy lifestyles are 
more than enough to make the effort.
    When mandated, the district developed a wellness policy by 
convening a committee with strong convictions to improve 
students' lifestyles. It addressed many areas, including 
physical and nutrition education, support for parents' efforts 
toward healthy lifestyles, staff health and wellness, National 
School Lunch and Breakfast Programs, and competitive foods. 
Written into our wellness policy were specific requirements for 
all food in all grades, K through 12, including a la carte, 
breakfast, and lunch.
    The Wellness Committee's requirements for school meals 
included, but were not limited to, offer a variety of fruits 
and vegetables, with an emphasis on fresh, and serve whole 
grains whenever possible, with a goal of at least half by 2008-
2009. Even though I was a member of the committee, as a Food 
Service Director, I was concerned that these requirements were 
challenging and too vague. I was also concerned about the 
overall cost to the program and how I was going to do this.
    The wellness policy went into effect for the 2006-2007 
school year. Implementation of the wellness requirements was 
phased in. We started by adding one fresh fruit or vegetable to 
every lunch menu. We used common fruits and vegetables, like 
apples, oranges, and carrots. Popularity of the fresh foods 
increased over time and we now include more seasonal produce, 
such as melons, kiwis, green peppers, and cucumbers. These 
additions were welcomed by our kids and staff.
    Then came our School Meals Initiative Review in December of 
2006. Our Department of Education consultant, Jane Heikenen, 
introduced me to the HealthierUS School Challenge. This 
certification program recognizes elementary schools that take a 
leadership role in helping students learn to make healthy 
eating and active lifestyle choices. Given our district's 
commitment, these guidelines appeared to be the missing link to 
our wellness policy.
    To achieve the Gold Award, a number of criteria had to be 
met, including school lunches that demonstrate healthy menu 
planning practices and principles of the Dietary Guidelines for 
Americans; nutrition education activities in at least two 
grades; physical activity opportunities at every grade level; 
student average daily participation of 70 percent or greater; 
and competitive foods could not be sold on the elementary 
campus during the school day.
    So in early 2007, we started working toward the guidelines 
by testing whole grain recipes that we could produce. Second, 
we modified our current school recipes to include more grains. 
These changes were well accepted and possibly some not even 
noticed. During the past 2 years, we also found that we must 
handle these products differently. The whole grain does not 
seem to have a long shelf life and quickly becomes stale, thus 
encountering more waste and increased costs.
    Also in the fall of 2000, we increased legume menu items. 
In other words, this meant more beans. We now offer baked 
beans, refried beans, kidney beans in chili, and commodity 
pinto beans in taco meat at least once a week. We started with 
about 5 percent choosing more legumes and now have increased to 
about 15 or 20 percent of our students making that choice.
    While food service was working on food served, the 
principals and elementary teachers worked on the physical and 
nutrition education requirements. I was pleased to learn that 
our district had met these requirements without modification.
    The final criterion to be met was 70 percent average daily 
participation, and in October of 2007, the elementary schools 
averaged 81 percent.
    We did it. In July of 2008, we learned we had achieved the 
Gold Award. Even though we have a Gold Award, we continually 
look for new ways to incorporate the foods that support the 
HealthierUS School Challenge into our menus, curriculum, and 
daily lives of our students.
    However, increased food costs will make reapplying for the 
HealthierUS School Challenge more difficult in the future. In 
fact, the implementation of the HealthierUS School Challenge 
criteria came with an increased cost. Some items were as high 
as 76 percent more than the traditional item we were 
purchasing. In addition, not only has the cost of fresh fruits 
and vegetables increased, the labor to prepare them has also 
increased. I now figure about ten to 20 cents more per serving.
    Finally, the banner in the hall we received is really 
awesome and the plaque in the school is quite impressive, but 
we didn't do it for the plaque or the banner. We did it for the 
sake of the kids, and I am proud of the Knoxville Elementary 
Schools for having achieved this. But as I said before, serving 
healthy foods is not without a cost and my budget is suffering.
    Please help us implement this great opportunity to serve 
children nutritious foods in more schools throughout the Nation 
by supplementing reimbursement. It costs more money to prepare 
and serve the meals at Knoxville Schools than what we receive 
in reimbursement. I support the SNA's request for an additional 
35 cents for all lunches and 20 cents for all breakfasts 
served. In addition, I think the HealthierUS School Challenge 
should receive money to support their commitment to fresh 
fruits and vegetables and whole grains.
    Thank you for giving me this opportunity to share our 
experience with the HealthierUS School Challenge. It has made a 
difference.
    [The prepared statement of Ms. Boldt can be found on page 
72 in the appendix.]
    Chairman Harkin. Ms. Boldt, thank you very much for the 
testimony and for great leadership. I am sure we will have some 
questions for you.
    I would like to start this round of questioning by looking 
at the cost and reimbursement. This is something we grapple 
with a lot here, too, and I think all of us here are interested 
in making sure that we adequately reimburse schools, but we 
have to have a better handle on what that means. So I am struck 
by the very different testimony here between you, Dr. Wilson, 
and Dr. Bartlett, with respect to the costs of producing a 
reimbursable meal.
    Dr. Bartlett suggests that, by and large, the Federal 
reimbursement for a free meal is sufficient to cover its cost--
correct me if I am wrong on that. Dr. Wilson concludes the 
opposite finding, a 35-cent gap between reimbursement and 
production costs. So I would like to try to see if we can 
figure out why we have such a significantly different 
conclusion from two very qualified individuals. That is one 
thing.
    And then on competitive foods, with respect to non-
reimbursable meals, such as a la carte lines, again, the 
testimony concludes very different things. Dr. Wilson, you say 
that you need the money from competitive foods to cover gaps in 
the school food service budget. Dr. Bartlett, your study found 
that such foods such as a la cartes are actually the reason for 
those budget gaps and that Federal reimbursement for free 
lunches are subsidizing food provided through a la carte lines.
    I would like to try to examine this and see if we can get 
to the bottom of this because it has very significant policy 
ramifications here for us. So, again, without trying to pick 
one or the other, I don't know, I am just trying to figure out 
why we have such different conclusions here.
    Dr. Wilson, how do you square your testimony on the costs 
of competitive and a la carte foods in light of the fact that 
the testimony from Dr. Bartlett arrives at conclusions that are 
almost totally different from your own? And I am going to ask 
Dr. Bartlett the same question, too.
    Ms. Wilson. OK. Well, thank you for the chance to answer 
that question. First of all, I think that in the reimbursement 
rate for the reimbursable meal and the 35 cents that we are 
talking about, I do have some State statistics, one from 
Minnesota in itself that shows overall in the State of 
Minnesota, it is $2.99 average to prepare and serve that meal.
    I think sometimes what happens is the data--for instance, 
from 2005-2006 is when the study was done and the data may have 
been from that year or even a year later, I will cede to Dr. 
Bartlett to let us know that, but just from the year 2005-2006 
to today's environment, I see a drastic increase in costs in my 
program, the whole grains, the fruits and vegetables, my labor 
costs, which Ms. Boldt referred to. Labor costs have gone up 
also considerably in our programs, and so the gap continues to 
rise. Even from 2005-2006 to the 2008-2009 school year, the gap 
is getting bigger and bigger and bigger.
    This year is the very first year many of us saw fuel costs 
on our invoices, saw bread and milk bids that said, you know 
what? We can raise your prices within a 30-day notice, and that 
is a bid, so based on the price of commodities the bid price 
can go up. I have been in the business 21 years and have never 
seen those things on bids before or on invoices.
    Chairman Harkin. Tell me, what was the reimbursement rate 
in 2006 and 2007 when this study was done and what is the 
reimbursement rate today.
    Ms. Wilson. In 2005-2006?
    Chairman Harkin. Yes.
    Ms. Wilson. Do you have the numbers or rate?
    Chairman Harkin. What was the reimbursement rate?
    Ms. Wilson. The reimbursement rate was $2.51, which was 
cash of about $2.37 and commodities of, like, 17 or 18 cents.
    Chairman Harkin. So two-fifty----
    Ms. Wilson. One, including cash and commodities, yes.
    Chairman Harkin. Two-fifty-one. And today it is what? What 
is the reimbursement rate?
    Ms. Wilson. Well, we have $2.57 plus about 20 cents, 21 
cents in commodities.
    Chairman Harkin. So it is $2.77----
    Ms. Wilson. Mm-hmm.
    Chairman Harkin [continuing]. Is the reimbursement rate. So 
the reimbursement rate has gone up, so even though your costs 
have gone up, the reimbursement rates have gone up, too.
    Ms. Wilson. But I don't think they have kept pace with 
labor, particularly labor and food costs.
    Chairman Harkin. What you are saying is that this snapshot, 
this study that was done in 2006-2007, is that when it is? Is 
that the basis?
    Ms. Bartlett. Five-six.
    Chairman Harkin. Two-thousand-five and 2006. What your 
point is is that since that time--we are talking about 2 years, 
three maybe, 3 years--that the increase in the costs have far 
exceeded the increase in the reimbursement rate?
    Ms. Wilson. Yes, sir, that is----
    Chairman Harkin. So the reimbursement rate went up about 10 
percent, just my back-of-the-envelope figuring, 10 percent. Do 
you have any data on how much the other associated costs have 
gone up in those 3 years, that period of time?
    Ms. Wilson. Well, I know some of the studies--we studied 
the top 100 districts in the country and some of those costs--
and we can get you exact data, but I know even from my own 
personal experience, it is anywhere from 11 to 14 percent in 
costs that I have experienced in the 2008-2009 school year, and 
that includes labor and food costs.
    And then the indirect costs, also, as schools have begun 
to--I know we talked about in-kind costs that school districts 
provide for the Food Service Program. In 2005- 2006, schools 
weren't as pinched as they are now overall, and so as school 
districts themselves see their budgets shrinking and needing to 
do more and more with less, they are looking to the Food 
Service Program to provide more and more indirect costs to help 
them run the entire school program rather than just food 
service. So there are not so many of those in-kind gifts 
anymore as we see in our programs.
    Chairman Harkin. Dr. Bartlett, I will ask you the same 
question. How does your data that you have are really different 
than what the data I have heard from Dr. Wilson?
    Ms. Bartlett. Sure. Indeed, the study was based on 2005 to 
2006 data, so things could have changed over time, all the 
things that we have talked about.
    A couple of points. One, the study that we did was a 
nationally representative sample, so we sampled districts 
across the country and when things are weighted up, it looks 
like the entire country, not just restricted to, say, the 
largest districts.
    I think I can tell you what we did, and I think this, 
though, is probably the main point of difference, is that--and 
it has to do with allocating the administrative and overhead 
costs of meal production. When we look at reported costs, we 
look at all the expenses that are on an SFA's expense 
statement. Some of those costs are directly related to food 
production, the costs of the food, the costs of the cooks to 
prepare the meals. So those get directly allocated to the meals 
that they are attributable to.
    But then there are costs like the SFA director, secretary, 
things like that, warehousing of foods, those kinds of 
administrative costs that are part of food service, or belong 
to food service, but not directly attributable to any one given 
meal. So the question is how to allocate those.
    We followed what are considered generally accepted 
accounting practices and we allocate those non-production costs 
across lunches, breakfasts, and non-reimbursable foods. So they 
each pay a share based on the food and labor that--the direct 
production labor. So I think that kind of loading of the 
overhead costs across all meals may be one of the major 
differences.
    Chairman Harkin. So it seems to me that the real, I don't 
want to say culprit here, but the real question we have to get 
at is these indirect costs. Is that right or not? Is that the 
main difference we are seeing here, is how you allocate those 
indirect costs?
    Ms. Wilson. Well, I think that, if I could answer that, the 
thing is that when we set up our budget, and if we are 
warehousing our food or if we are working my salary, for 
instance, is also set up across--the budget is separate. The 
competitive foods or a la carte, breakfast, and school lunch 
all have separate line items in my budget, the costs and the 
revenues, and so that is broad-based. My secretary is broad-
based over those.
    And when we talk about some of the indirect costs, I am 
talking about all of a sudden, because you store your food in 
the warehouse and you have a quarter of that warehouse, the 
district, because they are so pinched for finances, decides the 
Food Service Program can just pay for the entire cost of the 
warehouse and everybody who is running the warehouse, whether 
it stores desks or paper or supplies for the school building, 
and then a quarter of it might store some food over in the 
corner.
    We know people that pay for maintenance people that really 
have nothing to do with food service. They might mop the 
building that the kitchen is attached to. And so as these costs 
are pinching districts, they are looking. Electricity, all 
garbage pick-up--instead of charging the Food Service Program 
just for what the food service does in garbage pick-up, you 
might be charged for all the garbage pick-up in the district. 
And so those are some of the indirect costs that we are seeing, 
and there is no cap in the statute to prevent some of that from 
happening.
    Chairman Harkin. Have you seen over your experience that 
schools are shifting more and more of these indirect costs to 
the School Lunch Program?
    Ms. Wilson. Yes, sir, they definitely are.
    Chairman Harkin. Did you pick any of that up in your 
studies at all, Dr. Bartlett?
    Ms. Bartlett. We did look at indirect costs, which we--most 
districts have indirect cost rates that they apply to school 
food service as well as other Federal grant programs, and 
indeed to pick up costs of--I mean, different districts 
obviously have different rates that include different things. 
We did not find--we found that while most districts had 
indirect cost rates, that only about 16 percent of the 
districts actually charged the school----
    Chairman Harkin. About 16 percent?
    Ms. Bartlett. Sixteen percent charged indirect costs as a 
line in their expense statement. So while that gets applied to 
some, it did not get applied to most. So in terms of those 
kinds of costs.
    Chairman Harkin. Well, I just raise the question, if 16 
percent is the mean on this, then I raise the question of why 
other school districts can't meet the mean if they are higher 
than that.
    Ms. Bartlett. In terms of--no, this is just what percent of 
districts are charged at all for the indirect costs. When you 
look----
    Chairman Harkin. When you are saying 16--tell me what the 
16 percent is now. I thought that was the----
    Ms. Bartlett. No. Sorry.
    Chairman Harkin [continuing]. Of the total that was----
    Ms. Bartlett. If you looked at school districts, what 
percent of the districts themselves get charged these kind of 
indirect costs on their expense statement.
    Chairman Harkin. Oh, I see. I see.
    Ms. Bartlett. We only found that those kinds of indirect 
costs showed up on 16 percent of the budgets. The rest of them 
were not charged for those. Again, we also have to make sure--
partly when we talk--be clear about talking about what we mean 
by indirect costs, because we also talk about the overhead 
costs of the school food, the manager, the SFA director, and 
those. Those are kind of costs that are on the expense 
statement of the SFA.
    Chairman Harkin. I have taken more than enough time. 
Senator Chambliss?
    Senator Chambliss. That actually is an area that I wanted 
to address, too. I think Senator Harkin has pretty well covered 
it, but it looks like, Dr. Wilson, that in your particular 
case, there are some charges being assessed against the program 
that ought not to be assessed. We don't need to put you at odds 
with your school board and the other folks who are assessing 
these costs, so I think this is an area that we need to address 
in this legislation and your testimony this morning on that has 
been very valuable.
    Ms. Boldt, I am just curious, do you know what happens in 
your system? Do you know whether these indirect costs are 
charged to your program?
    Ms. Boldt. No, I really can't answer that.
    Senator Chambliss. I think that is something that all 
members of the committee are going to need to look very closely 
at from a State-by-State standpoint, but certainly, Mr. 
Chairman, it is something that we need to address in the 
reauthorization.
    Ms. Wilson. We have one example from Georgia, if you would 
like to just hear some numbers.
    Senator Chambliss. Yes.
    Ms. Wilson. This is from, in Georgia, quite a large 
district said to me they pay $1,140,000 in indirect costs, 
$395,000 for six maintenance people that work throughout the 
entire district, $220,000 for utilities that are used in the 
buildings that they are housing kitchens in, and $84,000 are 
from uncollected meal costs. So that just gives you some 
numbers of a district in Georgia.
    This has truly been--the difference is that it has exploded 
since 2005-2006, these kinds of costs, because school districts 
are also really in trouble as far as finances are concerned. 
Thank you.
    Senator Chambliss. These are obviously very difficult 
economic times and every area of our economy, and I know school 
districts are looking for every way they can to try to recoup 
the tremendous overhead that they are seeing because they have 
got the same fuel cost and labor cost increases that you 
alluded to that you are being charged with. But that is not 
right. I expect I will get a call from that nutritionist, 
probably the chairman of that school board.
    [Laughter.]
    Senator Chambliss. But it is something we need to look at.
    Dr. Wilson, if USDA were given the authority to regulate 
food sold in competition to the National School Lunch Program, 
do you see a need to continue the requirement for all school 
districts to have local wellness policies?
    Ms. Wilson. That is a very interesting question. We really 
truly believe that USDA needs the authority to regulate 
everything in the district, because then we can all conform to 
dietary guidelines. While wellness policies were really a good 
idea and everybody meant well, we have some very excellent 
policies in this district that were done well with good 
committees, and then we have some policies where it was 
somebody who was pestering the superintendent and they needed 
something to do, and so they are now--we just heard a speaker 
yesterday, that he talked about the philosophy of nutrition 
rather than the science of nutrition, and many of these local 
wellness policies are not dealing with the science of 
nutrition. They are dealing with the philosophy of food or 
eating or a personal philosophy and how someone eats because 
they became the chair of that wellness policy.
    So even though they were intended to do good, they didn't 
always do what they were intended to do across this country, 
and so, yes, we truly believe that with USDA, just like the 
National School Lunch Program and Breakfast Program, we have 
national standards, a meal pattern that we all need to follow. 
And so if USDA had the jurisdiction over everything, from bell 
to bell during that school day, that then we would all follow 
dietary guidelines irregardless of what our philosophy of what 
nutrition might be.
    Senator Chambliss. Ms. Boldt, I first of all applaud your 
accomplishment of receiving that Gold Award for HealthierUS 
School Challenge, especially since you incurred additional cost 
for some of the products that you provided. We oftentimes talk, 
when we talk about education in general, about the fact that, 
really, good education starts at home. If you don't have strong 
support from parents, then it makes it much more difficult to 
educate a child. Did you find that same experience with trying 
to achieve this goal that you were successful in achieving, 
that you had great support both from your PTA or other parental 
organizations as well as your school board, and how big a 
factor was that in achieving this award?
    Ms. Boldt. We did have pretty good support across the 
board. We also had in our wellness policy that we make efforts 
to encourage the parents and support for them, like with 
information, different kinds of things that we can do to help 
them at home, also. So we have included that in our wellness 
policy.
    Senator Chambliss. Dr. Bartlett, did your study look at the 
impact of school policies regarding a la carte or vending sales 
and how the volume of such sales may influence the resources 
available to school food service personnel?
    Ms. Bartlett. We really just focused on looking at the 
costs of those different components of the program and 
collected data on that at the point in time, 2005 to 2006.
    Senator Chambliss. OK. Thank you, Mr. Chairman.
    Chairman Harkin. Thank you, Senator Chambliss.
    We welcome Senator Klobuchar, both for questions and if you 
have an opening statement you want to give.

STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Klobuchar. Well, thank you very much, Senator 
Harkin. Thank you to the witnesses.
    I have spoken on this issue a bit before from my 
perspective, being a mother with a 13-year-old and really 
seeing a tale of two schools, one, the school she attended in 
Minneapolis that was 90 percent free and reduced lunch for a 
number of years, and now in Arlington, Virginia, two public 
schools, which is a little different demographic make-up, and 
just seeing the differences in the school with less free and 
reduced lunch kids in terms of their fitness and their moms 
packing them carrots and things like that, and then seeing in 
the inner-city school just the vending machines being used a 
lot, I think a lot of kids going for maybe the less healthy 
alternative when there were choices and then some healthy food 
given out, as well.
    Minnesota, as you have noted, has put a lot of emphasis on 
this. But even despite our State's emphasis to see the 
difference between the schools and the nutrition these kids are 
getting is very stark, and also see the huge obesity problem 
with some of these kids. I am worried it is going to get worse 
as our economy gets worse because oftentimes it is cheaper to 
go out, as we all know, and buy less nutritional food. And so I 
am very concerned about this obesity issue.
    The other reason I am interested in this is we have a lot 
of food that is produced in Minnesota. We have a lot of food 
that is processed in Minnesota. I have gotten some information 
about the need, as you have talked about, Dr. Wilson, for some 
national standards and how this is contributing to cost, the 
fact that we don't have these national standards, and I wanted 
to lead with that and I know you were referencing it in your 
questions with Senator Chambliss, but how you think this could 
work to give the Secretary of Agriculture this discretion.
    I personally think it sounds like a good idea to me, sort 
of seeing this patchwork of things going on, and as we look at 
how to reduce costs. But at the same time, my whole focus is to 
make these meals as healthy as possible and to limit some of 
the--and I don't know what you are calling them here--bad 
competitive choices, and then also how we work that with the 
States, because I could see some of them would want to be 
doing--they might have different kinds of food that they have 
available in their States that are healthy. So a long question.
    Ms. Wilson. OK. Well, thank you. I think, first of all, the 
whole idea of standards is that--and let me, if I could, just 
give you an example. If you are a manufacturer in the school 
market and you make a small bag of graham crackers and you make 
it for 1.5 ounces, but five miles down the road, their 
standard, their wellness policy says, no, you can have up to 
two ounces. And then the next one says, well, we are going o do 
2.5 ounces. Well, now I go back to that manufacturer and I say, 
well, my district just said one ounce. So now there are four 
different bags of the exact same graham crackers, and to me, 
that is very costly.
    Most of our school districts are smaller. We aren't all 
metropolitan districts. So when you can't buy hundreds of 
thousands of them at the same time, the manufacturer is not 
going to make them just for you. So, first of all, without 
standards, we are eliminating a number of products that all of 
us could potentially use, because the manufacturer will make 
the product if we have a standard that a snack has to be two 
ounces or whatever we come up with as standard. That product 
will be made for all of us and we will all buy it at a much 
lesser cost than if we first--it would eliminate some things 
for smaller districts, and I am talking about the majority of 
districts in this country, but it would also cost most of us 
more if we are asking a manufacturer to make three and four and 
five different sizes of the same product.
    As far as nutrition is concerned and doing local kinds of 
things, I truly encourage local produce, local kinds of things 
that maybe are made in your community. But there, too, when we 
looked at our standards, we are looking for a range of things. 
It is very difficult to hit a sugar number, for instance, in 
milk and say, this is the number. We are not going anywhere 
else. This is the number. It is much better to do things in 
ranges because you and I both know that 1 day we do really 
well, and last night I was at a gala that had a fabulous 
dessert and I enjoyed every minute of it. So, you know, we 
can't do that every single time----
    Senator Klobuchar. We have a lot of those problems in our 
occupation.
    [Laughter.]
    Ms. Wilson. Absolutely.
    Senator Klobuchar. There is a lot of too many choices.
    Ms. Wilson. So we look at choices. We have a range for 
fiber in our standards. We have a range for sodium, so that we 
can, over the period of a week, look at things. And if I have 
something that is local in my district or made in my State that 
I want to use, it will fit within a range because I will 
balance that throughout the rest of the week. So I think it 
very nicely fits into standards if you have some ranges and 
some standards, though, that we all need to meet. And again, it 
is not based on somebody's philosophy. It is based on the 
science of nutrition.
    Senator Klobuchar. And how would it work with these a la 
carte choices, because I have seen myself they go for the 
fries----
    Ms. Wilson. And the standards do work. The standards are--
if the USDA Secretary has the opportunity to eliminate the time 
and place rule and they have the authority to say that here are 
the standards for the entire school during the school day----
    Senator Klobuchar. Right.
    Ms. Wilson [continuing]. You all need to meet them, whether 
it is in my a la carte line or in the school store or the young 
person that is selling to keep their club afloat and they have 
a little table outside the cafeteria----
    Senator Klobuchar. You might have limited my ability to 
sell Life Saver lollipops for the high school prom?
    Ms. Wilson. Perhaps, because----
    Senator Klobuchar. OK. That is what I did.
    [Laughter.]
    Senator Klobuchar. I mean, on the student council.
    Ms. Wilson. Sell recycled wrapping paper. It is much 
better.
    Senator Klobuchar. All right. So what about the vending 
machines and how would they fit into this----
    Ms. Wilson. They all fit within. Within the school 
building, under the authority of the USDA Secretary, everything 
within that building for the school day would have to meet the 
standard. And now there, too, I am not competing against the 
football coach, because if I have the most wonderful program, 
even my a la carte meets the standard, and a football coach, 
they are going to go to State, so they need to raise money to 
get on that nice bus and get down to State, we all support 
that. And if the football coach is going to sell something out 
there in the hallway, I guarantee you students will come and 
purchase it. They want to support their team. That is part of 
being in school. We don't want to be the adversary to that and 
that is what becomes--that is where the problem becomes a 
problem, because they take their $1.50 or their $2.50 and they 
are going to support that football coach, and they all mean 
well. They all have good meaning, but it is not always in the 
best interest of the science of nutrition. So the standard 
needs to be bell to bell in every area of that building for us 
all to be in the same thing for kids.
    Senator Klobuchar. Ms. Boldt, what do you think of that?
    Ms. Boldt. I agree 100 percent. That is exactly what 
happens in school districts.
    Senator Klobuchar. Dr. Bartlett, any thoughts on how we can 
do this? I just want to fix this, because I think people are so 
well intentioned here and they want to have healthier kids, but 
somehow these things keep falling through, and these kids are 
smart and they find ways to find this food. That is what I have 
seen.
    Chairman Harkin. They find what?
    Senator Klobuchar. They find unhealthy food wherever they 
can find it. It is a true fact. Also, sometimes their parents 
don't have the money to give them, or they are not at home 
learning some of this nutrition, so when they get to school, 
they are looking for the vending machine that has the--I am not 
going to say a brand name, just like when I brought up American 
Girl at the Commerce Committee, I got letters. But they find 
something that is very non-nutritional and that is what they 
eat for lunch, so----
    Ms. Bartlett. I have to say it certainly seems right. Our 
study didn't particularly focus on--we did not look at the 
nutritional quality of the different foods, but certainly my 
experience as a parent shows that there is a lot of unhealthy 
stuff going on.
    Senator Klobuchar. OK. Well, thank you very much and we 
look forward to working with you.
    Chairman Harkin. Dr. Wilson, you talked about the plethora 
of different wellness policies all over this country. In the 
last reauthorization of the child nutrition bill, I had offered 
an amendment that would have had a wellness policy developed by 
the Institute on Medicine that would have applied to all 
schools all over America. I lost that amendment.
    Then we decided, well, we will just have a wellness policy 
that each school would develop. I think we thought that at 
least, that way, at least schools would have to start thinking 
about what is a wellness policy. But you are right. They 
differ, as school districts differ all over the country. So I 
am glad to hear you say that not based on science. Of course, 
it is not based on Institute of Medicine guidelines.
    And then now, I am just delighted to hear you now 
advocating for the Secretary to have the authority for all 
schools. I have often said, what sense does it make if you have 
the authority for school lunches in the lunchroom or in the 
cafeteria, but you can go right outside the door and there are 
all the vending machines. I also like your testimony when you 
said that the signal, the message we send to kids if you have 
all these sugary drinks and candies and stuff in the gym but 
not in the rest of the school, are we saying to kids that is 
the healthy thing to eat in the gym? So I really appreciate 
your testimony on that.
    I think we have to come to grips with this in terms of 
having the dietary guidelines be standardized for the whole 
country and for every school. The only thing that I would think 
about in terms of a wellness policy beyond that is for the 
physical activity of kids and making sure that we have some 
wellness policies that develop in accordance with that so that 
kids get adequate exercise and that type of thing in a school 
setting. That is a little bit outside of your purview, but I am 
just saying that that should be also a part of the wellness 
policy.
    But I want to delve into one other thing and that is the 
idea that on this increasing the reimbursement, we have the 
inflation thing standard in there now that goes up with 
inflation. But I think what I am beginning to see is that we 
don't have a real good grip on these indirect costs, and there 
is no cap on them. There is no inflationary guideline on them 
whatsoever. And I think it would probably be fairly easy for a 
school district to think, well, if I have got to cut corners, I 
will just shift it over to that School Lunch Program. After 
all, they are going to get more money because they have got an 
inflationary increase. I think somehow we are going to have to 
take a look at that and how we might want to address it. I 
don't have a formula or anything in my head, but somehow, we 
have got to address how much of that shifting can go on from 
the indirect costs.
    But I also want to address a question to you, Ms. Boldt, 
about what you have done in your school. I read your testimony 
and in listening to you and what you have done, you were able 
to do it within these guidelines, right, and within the 
reimbursement that you have, you were able to do all of this.
    Ms. Boldt. I truly don't have the bottom line yet. I do 
suspect that our costs were higher, but I am not quite sure yet 
where the bottom line is.
    Chairman Harkin. Well, you have been doing this for 2 
years?
    Ms. Boldt. We are in our second year.
    Chairman Harkin. Two years now, and you have gotten all the 
healthier foods. But somehow, you have been able to do that 
within the reimbursement that you have been getting.
    Ms. Boldt. I am not quite sure if we are within 
reimbursement or if we have tapped into some, you know, 
savings, so to speak. We also have an a la carte competitive 
foods that fit our wellness policy that also supplement total 
program costs.
    Chairman Harkin. But you have control over that, too, 
right?
    Ms. Boldt. Yes.
    Chairman Harkin. Yes. You have control over that a la carte 
line, so----
    Ms. Boldt. Yes.
    Chairman Harkin [continuing]. You are also putting good 
foods and fresh vegetables and things like that in the a la 
carte line.
    Ms. Boldt. Yes. It is also regulated, the 35 percent fat 
and saturated fats and----
    Chairman Harkin. I just wonder if--I am proud of what you 
have done. You have got the certificate. You have got the 
banner hanging in the hallway. But if we want to replicate what 
you are doing around the country, I wonder if we need to have 
some more financial incentives or bonuses. For example, do you 
think that more schools would become HealthierUS Gold Schools 
if they received not only a plaque and a commendation, but a 
significant financial bonus at the end of the year for 
maintaining those strong standards?
    Ms. Boldt. It would definitely be of assistance for the 
budget.
    Chairman Harkin. Well, I think that is something that we 
ought to----
    Ms. Boldt. Because I did do----
    Chairman Harkin [continuing]. We ought to think about. If 
they meet these, they get some kind of a bonus or some kind of 
an incentive, to give some kind of a financial incentive for 
this at the end of the year. And I think maybe that is 
something that we could look at. I don't know, Dr. Wilson, if 
you have thoughts on that.
    Ms. Wilson. Well, I think there are a lot of possibilities 
and it certainly is worth exploring, Senator Harkin. I do--
again, will go back to the indirect costs, and if that would be 
something that would be decided upon, then we have to have the 
other piece that says that that stays within the Food Service 
Program to continue to do those activities and increase the 
healthy environment in that program. As long as that money 
isn't looked upon from the school district as a school district 
bonus but maybe it is used to do healthy things in the 
cafeteria and increase physical education, it has to be tied to 
that award, then, so they can't--but it is certainly something 
to explore, yes.
    Chairman Harkin. All right. Well, Ms. Boldt, I think you 
point out that it is very difficult to do what you have done in 
figuring out this 51 percent of whole grain items, bringing in 
more fresh fruits and vegetables. I think the important part of 
your story is that you did it and you didn't give up and you 
kept at it and you made it work without any extra money, at 
least as I understand it, for the meals. So I think that is a 
tremendous achievement and you ought to be very proud of it. I 
just again am thinking about how we replicate what you have 
done around the country, and I think maybe some financial 
incentives and bonuses might be a thing that we could do.
    Now, I am told that there are, Dr. Bartlett, OMB guidances 
on indirect costs. Do you know what those are? Can you address 
that at all, that there is OMB guidance on indirect costs and 
what can be assessed to the School Lunch Program.
    Ms. Bartlett. Indeed, sort of their restricted rates and 
unrestricted indirect cost rates that have to be approved, so--
--
    Chairman Harkin. By whom?
    Ms. Bartlett. I believe by the school district.
    Chairman Harkin. By the----
    Ms. Bartlett. Or the education--I am not 100 percent 
certain who sort of finally approves them, but I do believe 
that they do have to--I don't believe that a school district 
can just say, we are going to charge X percent and put all 
these things in it, but sort of exactly what goes in those 
rates is----
    Chairman Harkin. But Dr. Wilson just read what was going on 
in Georgia----
    Ms. Bartlett. Right.
    Chairman Harkin [continuing]. And all that. I mean, I don't 
know if that is within OMB guidelines or not.
    Ms. Bartlett. It seems odd, doesn't it. I don't know the 
answer to that question.
    Chairman Harkin. Do you know that, Dr. Wilson?
    Ms. Wilson. I don't believe there is any kind of--there is 
some minor language, and I am not familiar exactly, but it 
doesn't put any kind of a cap or what it can be or how often. 
And I was just handed a note that a director here at this 
conference told us, reported to us 2 days ago that they were 
not assessed indirect costs for quite a--until this year, so 
the district decided to go back 8 years to recap what they 
considered indirect costs on the Food Service Program--
electricity, garbage----
    Chairman Harkin. Is this the school you were talking about 
earlier, or is that a different school?
    Ms. Wilson. No. They said they don't remember what school 
district it is, but the director reported out to us at the 
conference that their district is going back 8 years to what 
they have assessed as indirect costs that should have been 
charged--garbage, electricity, and somebody mopping the floor 
in the cafeteria, those kinds of things.
    So there is no cap to it, as to what can be done or how 
much or what it could, you know, what indirect costs are 
allowable that have to do with food service, so----
    Chairman Harkin. This is all very interesting. I mean, not 
interesting, kind of alarming in a way. You said it is like 15 
to 18 percent? I forget which one of you said that.
    Ms. Wilson. That was in our testimony.
    Chairman Harkin. Fifteen to 18 percent of the costs are 
indirect costs.
    Ms. Wilson. Of their budget.
    Chairman Harkin. Of their budget.
    Ms. Wilson. They are taking 15 to 18 percent----
    Chairman Harkin. Did you have a figure on that, Dr. 
Bartlett?
    Ms. Bartlett. I don't have an exact figure on that. When we 
look at reported costs, we see that about 45 is labor, 45 is 
food, and there is 10 percent other, of which the indirect 
costs would be included in that. So on average----
    Chairman Harkin. In the ``other''?
    Ms. Bartlett. Correct. So on average, it would be less than 
10 percent.
    Chairman Harkin. So they are saying 10 percent. You are 
saying 15 to 18 percent.
    Ms. Bartlett. Again, I----
    Chairman Harkin. Do you have a methodology for how we could 
look at that? I would like to get to kind of the bottom of 
this, also.
    Ms. Wilson. Well, we definitely can send you our statistics 
in the study that we did to get to that number. But again, I 
think not that the data is skewed in any way from either place, 
it is just that the time has changed. And from 2005-2006 to 
2007-2008 and 2008-2009, my costs have drastically--and I am 
going to use the word ``drastically''.
    Chairman Harkin. Well, that would be 50 percent. I mean, if 
it went from 10 percent to 15, that is a 50 percent increase in 
2 years.
    Ms. Wilson. And many districts have just recently decided 
to start charging these indirect costs. You know, also, we can 
have 3 months of operating budget in a fund balance, and that 
is to purchase equipment. I want to start cooking from scratch, 
reopen my bakery, do fresh fruits and vegetables. I need 
equipment to do that. And so we sometimes will build a month or 
two of a fund balance so that when the dishwasher breaks down, 
I can repair that or replace it. I have now replaced--you know, 
in the State of Texas, they took out all their deep fryers, but 
they had to use their fund balances, if they even had them, to 
try to replace that equipment with cooking equipment. But a 
district might look at that 2 months' worth of money and say 
that that could be used for indirect costs.
    Chairman Harkin. Well, I think we are going to have to look 
at these OMB guidelines and take a look at them. The only 
concern I have about putting a cap on something, that becomes a 
ceiling, too. In other words, everybody goes to that----
    Ms. Wilson. It has to go there, right.
    Chairman Harkin. If the mean is ten or 12 or 14 percent, 
whatever it is, there are some obviously way below that, and if 
all of a sudden they can say, gee, now we can shift all these 
costs over, then we will find that happening. That is the only 
problem I have with putting a cap on it.
    Senator Chambliss. I think the problem we have got, Mr. 
Chairman, is that with the cost of fuel particularly 
increasing, skyrocketing in such a fast manner, all school 
boards had a significant issue all of a sudden that they didn't 
anticipate at the beginning of the year and they were looking 
for pots of money----
    Chairman Harkin. Yes.
    Senator Chambliss [continuing]. And for other folks to help 
them defray expenses, and with the cyclical nature of fuel 
costs, or my son-in-law is a produce farmer and cabbage can 
cost anywhere from $3 to $12 a box, it makes it difficult from 
a cookie cutter approach to try to figure out how we cap them, 
or maybe we can figure out a way to look at the food consumed 
away from home provision, which I understand is the index we 
use, not the CPI, that maybe we can look at that and try to use 
a factor in there that is maybe a little more reasonable and 
will help both ends of this issue. But it is something we have 
got to look at.
    Chairman Harkin. Yes, we are going to have to look at it. 
If you have the answer, let me know, will you? I don't know 
that I have the answer.
    [Laughter.]
    Ms. Wilson. Could you let us all know?
    Chairman Harkin. What is that?
    Ms. Wilson. We would like all to know if you find the 
answer.
    Chairman Harkin. Yes, I don't know. This is something 
definitely we are going to have to have our staffs work on and 
stuff.
    Senator Casey has joined us from Pennsylvania. Senator 
Casey?

  STATEMENT OF HON. ROBERT CASEY, JR., U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you very much, and I 
want to commend you on presiding over this hearing and 
highlighting this important issue.
    Very few issues we confront in Washington have as much 
importance, I think, not only to the life of a child and his or 
her family but to the family of America and for our long-term 
economic security. We can't divorce or separate the issue of 
child nutrition and what happens to children in our schools and 
our communities, we can't separate that from job creation and 
skill development and economic growth and all of those issues.
    I do want to thank those in the audience and, of course, 
our panel for the work you have done over many, many years, 
laboring, literally laboring in this vineyard for so long and 
so passionately. We are in a time period now where a lot of 
these issues can be addressed, but we are in a time of tight 
budgets and economic difficulty, so it is not going to be easy 
to do what we hope to do.
    But I do want to thank Dr. Wilson especially. We met the 
other night, along with many of your colleagues. You all look 
well rested, so apparently people didn't stay up too late. But 
Dr. Bartlett and Ms. Boldt, we want to thank you, as well, for 
your testimony.
    I know that we are running late, we are on the second 
round, and I apologize for being late. I just wanted to present 
one question for the panel before we conclude, just to get your 
sense of some of the practices that are working, some success 
stories, so to speak.
    We have heard from a number of experts in school nutrition 
that one of the biggest problems with administering the various 
meal programs is that you have different paperwork, you have 
got different eligibility and oversight requirements. And I 
just wanted to ask a broad question for each or all of you. 
What would you recommend as to addressing this problem to make 
the programs easier to administer? You may have covered this 
already, but I just wanted to get a sense from the experience 
we have had in Pennsylvania, and we have some Pennsylvanians in 
the crowd. We won't ask you to stand up. But if there are best 
practices that you have identified that would help on these 
questions of administration.
    Ms. Wilson. Well, thank you, and I think that we can get 
some wonderful examples from districts across this country that 
are doing really great things, that have become innovative, and 
I know we have to be very creative. But if I could say one 
thing administratively, and we haven't even talked about it 
here, but it could be another way to really help our programs, 
and it was in our testimony, and that is that we collect all 
the income data in every individual school district and then 
everybody in the district uses that income data for all 
different Federal programs. But all of that cost is in our 
program, in the School Nutrition Program, and that is a cost 
when you are collecting all of this income data.
    The other thing is that then we do verification, and we 
have to go through that whole process. But everybody uses that 
information. And so if we could look at another way somewhere 
else to collect this income data to be accountable.
    And then the other big piece is that the free category, if 
we could eliminate free--I am sorry, eliminate reduced category 
and make those children all free, because they qualify in WIC 
and then they come to school in kindergarten and they don't 
qualify for free meals at the same level. So to eliminate that 
reduced-price category would really also help streamline our 
programs. These are ways that we can streamline the spending 
and the administrative burden that is on these programs that 
are very well audited and very well accounted for. Thank you.
    Senator Casey. Anyone else?
    Ms. Bartlett. I have to say, I defer to my colleagues since 
they have more direct experience. But just a couple of points. 
Abt is doing another study that is trying to ease some of--
looking at how to ease some of the administrative burden in 
terms of the verification that has to be done for school 
lunches and working with States to help them use Medicaid data 
to directly verify income. So certainly moving in that 
direction is a way to streamline that would be useful. That is 
one idea.
    Senator Casey. Thank you very much.
    Mr. Chairman, thank you. I know my time is up, but we are 
critically concerned about this issue and I think these issues 
that involve children, just like we made progress recently on 
children's health insurance, this issue, as well, I think is a 
matter of basic justice for children and for families. We have 
got to do everything possible to get this right. Thank you very 
much.
    Chairman Harkin. Thank you.
    I have just one last question I wanted to follow up with 
Dr. Wilson, and that is this difference in the competitive 
budget. Are reimbursements--for example, Dr. Bartlett said 
their study found that a la carte lines are actually the reason 
for the budget gaps, that Federal reimbursements for free 
lunches are subsidizing food through a la carte lines. But you 
say you need the money from competitive foods to cover gaps in 
the school food service budget, and that is still something I 
am trying to wrestle with and trying to figure out. Are 
reimbursements subsidizing the competitive foods?
    Ms. Wilson. Well, I really think that--I don't know a 
district--I don't know a State department that would allow that 
to occur, because we have to keep our a la carte budget 
separate from our reimbursable budget. And so when we are 
reviewed once every 5 years, that is one of the things they 
check, and so some of those districts may not have been 
reviewed correctly or something because we are not allowed to 
use any money from the reimbursable program to subsidize a la 
carte. If they see that there is a problem in budget there, if 
you don't bring even your labor that is doing the a la carte 
over to that side of the line item, our State department would 
say to us, we need to see labor here, because it has to account 
for the exact cost.
    So I am not sure where they were at or what districts they 
were in, but we absolutely have a la carte to subsidize the 
rest of my programs. You know, we are not all in this to keep 
increasing the number of programs that we have in our School 
Nutrition Program and we have two reasons for a la carte. One 
is that it does definitely subsidize my Breakfast and Lunch 
Program. The second is that I am trying to meet the needs of 
all children, and I want those children to stay in school and 
obtain their nutritional foods from me. And so I, too, have 
very strict restrictions on what I sell in that a la carte 
line. It is not a bunch of stuff that they can go to the gas 
station and buy. I am very, very restrictive. But it is 
definitely--it is priced accordingly so that if you buy a la 
carte items, that money is being used to subsidize the rest of 
my program.
    Chairman Harkin. So the money flows one way, but not the 
other way.
    Ms. Wilson. Our State wouldn't allow it. It is not allowed.
    Chairman Harkin. But it allows it the other way, from 
competitive foods to the school lunch----
    Ms. Wilson. It is part of the entire food service fund, but 
we can--and that is why I started a la carte in the district I 
am in.
    Chairman Harkin. Dr. Bartlett, when I read your testimony, 
it seemed to indicate that actually the school lunch Federal 
reimbursements are subsidizing the a la carte lines. I am 
trying to wrestle with this.
    Ms. Bartlett. Right. I do think that the main difference 
has to do with the allocation of the overhead kind of costs. We 
certainly recognize the SFA director, things like that, how 
that gets allocated to the different meals. Our methodology 
which we applied this study and which we applied--we did a 
similar study--the same study 14 years ago--found the same 
results of a cross-subsidization. And it is these sort of 
overhead costs that get allocated to lunch, breakfast, and 
competitive foods, arguing that those programs, those products 
should bear some of those kind of overhead costs. As I said, we 
had the same finding before and the practice that we follow are 
generally accepted accounting practices, to allocate those kind 
of costs that come up with the average costs of meals.
    And in terms of the districts, it was a nationally 
representative sample. I think it is sort of--it is not due to 
peculiarities in the districts that we studied.
    Chairman Harkin. I will have to think about that. I will 
have to think about that. I think I understand what you are 
saying, is that if you have the set-up for the School Lunch 
Program, School Breakfast Program, then you introduce a la 
carte lines, they are utilizing the space and the overhead and 
all that kind of stuff, so that really does subsidize the a la 
carte line, not in kind of a money flow, it is just that you 
are saying that the whole arrangement then covers any costs of 
the a la carte line----
    Ms. Bartlett. Right.
    Chairman Harkin [continuing]. Is my way of thinking about 
it, anyway.
    Ms. Bartlett. Exactly.
    Chairman Harkin. But again, if a la carte lines have to 
meet dietary guidelines and meet all the dietary guidelines and 
stuff, well, I guess I am not so worried about it then. It is 
just the problem there are a lot of the a la carte lines that 
don't do that right now. I don't much care how that food gets 
out there as long as it is good food.
    Well, that is really all I have. Senator Chambliss, do you 
have any follow-ups at all?
    Senator Chambliss. Thanks, ladies.
    Chairman Harkin. Great panel. Thank you all very much. 
Thank you, Dr. Wilson and Dr. Bartlett. Thank you, Connie. 
Thanks for what you did in Knoxville. It is a great example.
    We will call our second panel up. That is Dr. David Paige, 
Mr. Kenneth Hecht, and Ms. Lucy Nolan.
    [Pause.]
    Chairman Harkin. We welcome our panel. Dr. David Paige, 
Professor of Population and Family Health, with a joint 
appointment in International Health and Human Nutrition at the 
Johns Hopkins Bloomberg School of Public Health, and a joint 
appointment in pediatrics at the School of Medicine. Dr. Paige 
is a recognized expert in the area of community health and 
maternal and child nutrition. His groundbreaking studies of 
lactose intolerance in children, his pioneering effort in 
establishing a Supplemental Feeding Program for Disadvantaged 
Women, Infants, and Children, and his design and implementation 
of community-based programs define the scope of his interest.
    Mr. Kenneth Hecht is Executive Director and one of the co-
founders of California Food Policy Advocates. Begun in 1992, 
CFPA is California's State-wide nutrition policy and advocacy 
organization whose mission is to improve the health and well-
being of low-income Californians by increasing their access to 
nutritious, affordable food. Upon completion of law school, Mr. 
Hecht worked for 15 years as a public interest attorney, first 
at San Francisco Neighborhood Legal Assistance Foundation and 
then as Executive Director of the San Francisco Legal Aid 
Society. Right away, you are a friend of mine. That is how I 
started my whole career, is as a legal aid attorney, Mr. Hecht. 
We are glad you are here.
    And Lucy Nolan, the Executive Director of End Hunger 
Connecticut, a nonprofit organization dedicated to ending 
hunger in Connecticut. Their goal is to raise awareness of 
hunger in the State of Connecticut, promote funding for and 
access to nutrition assistance programs, and to speak out to 
help eliminate the root causes of hunger. She received her B.A. 
from Ohio Wesleyan University and her Juris Doctorate from the 
University of Connecticut School of Law.
    We welcome you all here to this discussion on the 
reauthorization of the child nutrition bill. Your testimony 
will be made a part of the record in its entirety and if you 
would just summarize in several minutes, we would appreciate 
it.
    Dr. Paige?

   STATEMENT OF DAVID PAIGE, M.D., PROFESSOR, JOHNS HOPKINS 
              MEDICAL SCHOOL, BALTIMORE, MARYLAND

    Mr. Paige. Yes. Thank you, Mr. Chairman, Senator Casey, 
other members of the committee. As you noted, I am at the Johns 
Hopkins School of Public Health and in the School of Medicine. 
I am a member of the Maryland State WIC Advisory Panel and 
direct a WIC Program out of Johns Hopkins and I am also 
testifying today on behalf of the National WIC Association and 
a copy of their testimony will be appended, and I acknowledge 
my good colleague, Reverend Douglas Greenaway, who is the 
Executive Director of that fine association.
    My comments this morning will focus on the critical role of 
the WIC Program, the role that it plays in securing the 
nation's health. The past 36 years with respect to the program 
has demonstrated that it is a potent force in improving the 
health, nutrition, and well-being of women, infants, and 
children living in poverty. And it is really poverty that we 
are talking about with respect to the problems of under 
nutrition and poor nutrition.
    Today, over 13 million children below 18 years of age, 18 
percent of the population, is living below the Federal poverty 
level, which for 2009 is set at $22,000, and the number rises 
to 21 percent when we look at children below 5 years of age, 
the population that WIC serves, and even higher in the African-
American population, Hispanics, and children living in female-
headed households. So we have a considerably large number of 
children and families at risk.
    Moreover, between 2000 and 2007, the number has risen 
considerably, a 15 percent increase, another 1.7 million 
children that we are dealing with. The Census Bureau estimates 
that over 12 million children are food insecure as measured by 
generally accepted standards. Of course, we know the number 
will escalate in the current economic situation.
    WIC is very effective in reaching this population. Seventy-
five percent of all of the WIC enrollees are below 100 percent 
of poverty level, with about 35 percent below 50 percent of 
poverty and another 35 to 40 percent between 50 to 100 percent 
of poverty.
    I would like to focus briefly, if I can, on some of the 
risks that exist within this population and the role that WIC 
plays. I will try to do this briefly. Poverty in general, the 
overarching issue, results in poor health. Among pregnant 
women, 60 percent who enter the WIC Program have a clinical or 
medical condition at certification. Thirty-eight percent have 
obstetrical problems, 27 percent are anemic, and about the same 
number have low weight gain during pregnancy. These are 
critical issues, critical determinants with respect to low 
birthweight and pre-term birth.
    The WIC Program is very effective in reversing these 
conditions, these negative outcomes. There have been multiple 
studies, independent studies, that show clearly that WIC has 
been very successful in increasing birthweight as well as 
reducing pre-term birth. I won't go into all of the specifics. 
They are in the testimony.
    There is supporting all this a comprehensive review by GAO 
which clearly indicates that WIC is effective in lowering the 
incidence of low birthweight and pre-term birth, and also at 
the same time extraordinarily cost effective. There have been 
multiple studies showing the cost effectiveness of the program. 
Even a simple reduction of one or two nights in the neonatal 
intensive care unit or 1 day in terms of a woman's extra stay 
in the hospital will more than compensate for the WIC benefits. 
So this has been an extraordinary accomplishment on the part of 
the program.
    I would like to identify one other risk factor and that is 
infant mortality. Infant mortality in the U.S., as we all know, 
is lamentably very high and is among the highest among 
industrialized countries, even the highest, depending on some 
parameters that may be used. Reducing low birthweight and 
reducing pre-term birth is an effective way of reducing infant 
mortality. A number of studies validated by the GAO speak to 
the reduction of infant mortality. Our own work in the mid-
1990's further reinforces that particular issue with reduction 
to infant mortality.
    I would like to briefly discuss the preschool population, 
and that indicates that there are more subtle problems that 
exist in this population and we need to be very clear and we 
need to reach out to increase the enrollment of this population 
at risk.
    I also want to mention that the Centers for Disease Control 
has done multiple studies in this area which show the 
effectiveness of the program regarding improved weight gain, 
improved overall health, as well as a sharp reduction in anemia 
in the preschool population.
    I would like to address two other areas briefly, obesity, 
which I know is an interest of the committee and of yours, 
Senator Harkin. We need to think of obesity as poverty induced, 
resulting in food insecurity and obesity as part of this 
continuing spectrum of issues that we are dealing with in 
populations in poverty. Of course, obesity is not limited to 
only the population in poverty. Nevertheless, this is a very 
important population group that is suffering from the epidemic 
of obesity as a result of the inadequate food purchasing, 
calorie-dense foods that are available, inadequate numbers of 
supermarkets and other choices that exist in many of our poor 
communities, both urban as well as rural throughout our 
country. And we need to do a great deal in this area and 
perhaps a question and answer can address this even more fully.
    Breastfeeding is another crtical area that I would like to 
speak to very briefly. When we talk about addressing obesity, 
we need to start pre-conceptionally, peri-conceptionally and 
during the conceptional period. But the first time we can 
really introduce a remedy is postnatally providing 
breastfeeding. Human milk is the most important nutritional 
head start that we can provide to our newborns. Human milk is 
species-specific. It is a living tissue that provides both the 
anti-infectious agents, the antibodies, the other elements that 
we need to improve the well-being, and WIC is very dedicated, 
as you well know, to trying to improve the number of 
individuals who do elect to breastfeed. Nevertheless, in the 
lower economic tiers, this has become very difficult. Socio-
economic factors are the major impediment in this population 
and we need to do a great deal, and perhaps we can explore this 
further in question and answer.
    I would just like to move to some recommendations very 
quickly with regard to the administration of the WIC Program. I 
would argue that we enroll all infants, women, and children 
below 185 percent of the poverty level. This is cost effective, 
it is smart policy, and we will set the tone and the health 
infrastructure to help this population move out of poverty, 
become well educated, and move forward in eliminating this 
problem.
    Enroll all Medicaid recipients. I think this makes sense 
and is comparable with enrolling everyone below 185.
    I would like to argue the fact that we give the States the 
option to certify children up to 1 year, which this will 
maximize program effectiveness. This is also a very smart, 
cost-effective measure that combines remediation and 
prevention, because we need to be more efficient and clever 
about integrating the remediation arm and the preventive arm 
that is implicit in the WIC Program.
    I would also argue that we establish linkages with the 
social services community, more direct linkages, in a 
coordinated and collaborative manner, and this will improve 
communication and better target nutrition.
    Streamline uniform qualifying application, as we addressed 
earlier.
    Expansion of the WIC for electronic benefits, MIS and EBT 
funding.
    I would like to point out one area that doesn't get 
attention, if I may, and that is the military families who an 
individual of that family serving in the combat zone gets extra 
pay, but that then counts against them in terms of the WIC. And 
it is a small matter, but for that subgroup of individuals, 
they really deserve to not be thrown off the WIC Program. And 
since this has been brought to my attention, I thought that I 
would bring it to a higher authority with respect to improving 
on that.
    The other issues, I will leave for discussion, and they are 
in the written testimony, but we also need to address the 
obesity epidemic and move forward on this, and I thank you very 
much for the opportunity to testify before you today.
    [The prepared statement of Mr. Paige can be found on page 
92 in the appendix.]
    Chairman Harkin. Thank you very much, Dr. Paige.
    Mr. Hecht?

STATEMENT OF KENNETH HECHT, EXECUTIVE DIRECTOR, CALIFORNIA FOOD 
             POLICY ADVOCATES, OAKLAND, CALIFORNIA

    Mr. Hecht. Good morning. Thank you, Chairman Harkin and 
other members of the committee for this opportunity. I am from 
California Food Policy Advocates, a State-wide nutrition policy 
organization where we work to increase access for low-income 
Californians to nutritious, affordable food.
    As with much of the conversation this morning, our focus 
has been on school programs, but we have recently come to 
realize that by the time kids come to school, it may be too 
late to stop them from becoming obese. And as the studies show, 
obesity is exceedingly difficult to reverse, so that an obese 
preschooler is very likely to go on to be an obese adolescent 
and then an obese adult, with all of the disastrous 
consequences that that holds for the individual and really for 
the country. It seems to us absolutely indispensable to health 
care reform that we get it right when the kids are first 
starting out in our preschools and our schools.
    We had the opportunity at California Food Policy Advocates 
to participate in two studies, which has taught me all I know 
as a lawyer about nutrition. One was in Los Angeles, where we 
did observations in child care homes and centers, and another 
was done by mail to about 500 randomly sampled centers and 
homes throughout the State of California. The results were 
remarkably consistent and each fortified the other, and I would 
like to talk about those results.
    We have also had an opportunity to participate in two 
State-convened panels on child care nutrition generally and on 
the Child Care Food Program specifically and our 
recommendations come also from those two panels and are 
consistent with those two panels.
    First, just a moment on obesity. One in four children in 
the two to five age bracket is obese or overweight before ever 
reaching kindergarten--one in four. And as I said, this is 
exceedingly difficult to reverse, so it is the beginning of a 
long, long problem.
    At the same time, we still have concern for hunger and food 
insecurity. I think the number mentioned so far was 12 million 
children in that preschool bracket, and that turns out to be 
almost 20 percent, almost one in five, children is living in a 
household that is deemed by the government to be either food 
insecure or hungry.
    A few moments on the Child Care Food Program. It is a big 
program. It is serving three million children throughout the 
country. About a third of them are in family child care homes, 
very small operations, and about two-thirds are in child care 
centers, which tend to be a bit larger. The program is now 
spending about $2 billion a year.
    In addition to providing reimbursement, which, of course, 
is critical to the agencies, the Child Care Food Program also 
provides three monitoring visits every year, which is more than 
licensed child care homes and centers will receive in any 
State, I believe. It provides nutrition education, training, 
technical assistance, or at least it used to until the 
reimbursement went away and the money had to be focused on 
other things and away from these important services.
    The Child Care Food Program is based on a very simple 
concept of meal patterns, which are really the food groups. 
There is milk, fruit and vegetables, grains, proteins, and that 
sets--there are a minimum which set the quantity of those foods 
so that children should get enough nutrients, but what it 
doesn't address at all is the quality of those foods and it 
doesn't limit the numbers of calories. In other words, the 
Child Care Food Program set-up at the moment is not responsive 
to obesity. The meal patterns were set in place before we were 
aware of the obesity epidemic and they have not been changed 
since.
    USDA has commissioned a study from the Institute of 
Medicine, which is to start next year, and I think it is a safe 
estimate that the results of that study will not be implemented 
for another 4 years, 5 years, and our recommendations are what 
we believe are sort of consensus, unarguable changes to the 
program that don't interfere with but actually work well with 
meal patterns.
    A moment on our studies. Our two studies found that the 
child care facilities that participated in the Child Care Food 
Program had better nutrition than the facilities that did not. 
We found that Head Start was at the top of the pack and that 
food brought from home--I am glad there are no mothers left on 
the panel at the moment--was the worst. It had the least good 
nutrition to it. But within that, there was a range of 
nutrition that was better in the Child Care Food Program than 
not.
    Even in the Child Care Food Program, there are problems, 
which is what my recommendations will go to. For example, whole 
milk is being served in 50 percent of the Child Care Food 
Program sites, and I think it is absolute consensus 
scientifically that from the age of two on, children should not 
be receiving whole milk. They should be receiving either non-
fat or low-fat milk. Similarly, only 27 percent, about a 
quarter, of the homes and centers that were on the Child Care 
Food Program were serving any whole wheat at all. So there is 
room for improvement.
    Our recommendations follow the following principles. One, 
we want it to be consistent with the WIC Program, which is 
serving roughly the same population. The WIC Food Program, as 
you know, has recently experienced a real transformation in its 
food package and it is terrific, based on lots of study, lots 
of input from scientists and nutritionists all over the place, 
and we really try to borrow from that.
    Second, we are trying to make the recommendations simple, 
because in the homes particularly, there is not much time to 
fuss with complicated nutrition requirements.
    Third, we are trying to make it inexpensive so that the 
nutrition reimbursement goes as far as possible.
    Some recommendations on the nutrition. First, we urge that 
the reimbursement be increased. As we heard in the first panel, 
really, the costs have run away from all of the nutrition 
programs, and in the Child Care Food Program, where there is 
intensive paperwork, the reimbursement has been lost.
    But with the increase in reimbursement we are asking that 
nutrition improvements within the meal patterns be linked, and 
we are asking for the things that we all know are good, and I 
think there is plenty of science to back it up--low-fat milk, 
more fresh fruits and vegetables, more whole grains, less 
sodium, less sugar, less fats. Not rocket science.
    Second, as I mentioned, we would like the nutrition as well 
as the messages, the nutrition education, to be absolutely 
consistent with the WIC Program, which is doing a great job and 
we ought to grab onto it.
    Third, we are proposing that there be some changes in the 
health environment in these facilities in order to maximize the 
benefit of the Federal reimbursement. Every program ought to 
have water easily accessible to the kids. We ought to have 
limits on screen time. We ought to get those kids outside and 
moving, and if it is bad weather, they ought to be moving 
inside. So physical activity is important.
    In the school programs, we have a concept called foods of 
minimal nutritional value. We would import some of that into 
child care to be sure that the kids aren't having sodas, 
candies, the things that we all know they shouldn't be having. 
And finally, we need to devise some strategies to work with the 
moms and dads who are sending food from home and don't know 
better.
    In order to have these benefits make any difference at all, 
we need to grow these programs. There are two ways in which we 
would recommend opportunities for growth. One has to do with 
access and participation. There ought to be categorical 
eligibility into these programs so it is easy to get in for the 
kids who have already been means tested or their families have 
been means tested.
    Second, there are areas of our State, I suspect other 
States, where there cannot be family child care homes because 
there is no sponsoring organization in that portion of the 
State, and we would recommend that where there is no sponsoring 
organization that the State be the sponsor of last resort, or 
the State might delegate that responsibility, so that children 
won't be deprived of a family child care home on CACFP simply 
because there is not a sponsor in the neighborhood.
    Finally, there are ways to simplify and streamline this 
program. When the Child Care Food Program operates on a school 
campus, it ought to operate under the school lunch rules and 
regulations. We ought to defeat these kinds of silos that make 
administration complicated and expensive.
    Finally, we need money to train. The Federal money to 
train, the State money to train has really dried up and is not 
coming back any time soon at the State level. I think it has to 
be Federal reimbursement so that the sponsors are trained, the 
providers are trained, the providers are in a position to 
provide indispensable nutrition education to the kids and to 
their families so that we really spread the right obesity 
prevention strategies throughout our communities.
    Thanks a lot.
    [The prepared statement of Mr. Hecht can be found on page 
76 in the appendix.]
    Chairman Harkin. Thank you very much, Mr. Hecht.
    And now we will turn to Ms. Nolan.

    STATEMENT OF LUCY NOLAN, EXECUTIVE DIRECTOR, END HUNGER 
               CONNECTICUT, HARTFORD, CONNECTICUT

    Ms. Nolan. Good morning. Thank you, Mr. Chairman and 
members of the committee, for inviting me to present testimony 
today on behalf of meals served to children out of the school 
day. These meals are one of the best ways to improve nutrition 
for America's children in tough economic times, as you all 
know.
    I am here today to talk specifically about the After-School 
Programs and Summer Nutrition Programs. These programs are 
designed to provide nutritious meals and snacks to children 
when school is out. We know that when children participate in 
Federal food programs that they do better with their weight, 
and that children when they are out of school gain weight. We 
have science behind that.
    We really need to make sure that we can provide these 
children with these meals and snacks that are nutritious, and 
sponsors are trying to increase the quality of the food that 
they served. We have worked with a community in Middletown 
where they really worked hard to have better food that the kids 
will eat, but also increase their fresh fruits and vegetables. 
They need funds to do this. They can't do it with the funds 
that they have now.
    I just very quickly would like to say, in Connecticut with 
our School Nutrition Program, we have schools that certify as 
healthy schools, and when they certify as a healthy school, 
they are given ten cents extra per meal served from the prior 
year. I suggest this would be a great way to incentivize other 
Summer Nutrition or After-School Nutrition Programs, as well, 
and give them the funds to be able to get the healthier foods.
    These programs are really great because they combine food 
with activity. We see a lot of kids that go in and they 
swimming because they can get a meal, or they can do arts or 
after school they can do their homework, they can play 
basketball. They get some of the physical activity that they 
might not get if they are sitting at home.
    So it is key to us. We really feel that it is really 
imperative that we keep these programs as activity-based, as 
well, because as you say, it helps us look at the whole child 
and look at the future of our children and look at them as both 
health and as psychological health of our kids and getting them 
food and activity.
    I would suggest that we need to increase access to these 
programs. Right now, the Summer Nutrition Program nationally 
serves one in five eligible children. In Connecticut, we served 
one in four. We are No. 8 in the country. I mean, that is 
pretty terrible. It is great because we are No. 8, but it is 
really pretty terrible.
    So right now, the area eligibility is at 50 percent. We 
suggest that we go to before 1981 standards of 33 percent, and 
at the very least, we use the current and non-food Federal 
funding for programs such as the 21st Century Learning Grants 
of 40 percent so that we have at least the same basis in that 
way and we can grab more children.
    I also think that we can create partnerships with farmers 
and farms on these programs. Again, in Middletown, we had a 
partnership with a CSA, Long Lane Farm that is part of Wesleyan 
University, and they came in every week and taught the kids. 
They planted something with the kids. They taught them about 
farming. They taught them where their food came from. They 
brought them foods that they could try. As anyone with kids 
knows, if other kids are going to eat something, they might try 
it, whereas they might not at home if it is their siblings or 
their mother goading them.
    Nutrition education is key. The expanded Food and Nutrition 
Education Program, we can work with them, FNEP. Again, using 
the healthy food incentives would be really helpful as a way we 
can--we have these programs. Let us use the nutrition and the 
program together to increase nutrition.
    Outreach is absolutely necessary. We have found in 
Connecticut, we give out in End Hunger Connecticut five grants 
of $750 to communities, to sponsors, as a way to buy things 
that are non-food related. So maybe they raffle off bikes. A 
kid would come every day, and every time they get a raffle 
ticket. At the end of the summer session, they would raffle it 
off and somebody would win the bike. It would have them come. 
They would want to come. They would tell their friends. They 
would have smoothie days, things like that. We increased last 
summer alone, with those, just those five sites, we served an 
18,000 additional meals and over 400 kids daily in those sites, 
and that is a $3,000 investment.
    We really do need to get people out there and do outreach 
because we can get to families. We can hang door knockers. We 
can get out flyers to schools before school is over. But it is 
really key that we let people know that these programs are 
happening. We also need funding for startup and expansion and 
transportation funds.
    And finally, the summer meals and also the after-school 
snacks and breakfast should receive commodity support, and in 
the rural areas perhaps cash in lieu of commodities because it 
is more cost effective.
    After-school snacks, there is really not enough food for an 
after-school snack. I have a son who eats lunch at 10:30 in the 
morning and then goes off and plays football. I know he is not 
in an after-school program, but I worry about him practicing 
football until 6. Kids need something in between, particularly 
if they are eating early.
    You guys last year, excuse me, with the Economic Stimulus 
Plan, we added two more States to the supper programs and we 
would like to see that all over the country because they are 
really just key programs. We can feed kids all year long. They 
can feed them during the weekends. They can feed them after 
school, families who get home late. It is just enough food for 
our children. We need to feed them what they really need. And 
then we can also do that through the National School Lunch 
Program, which would be great.
    The final thing that I would like to add is that we would 
really, really like to see this as a year-round seamless 
program, the Child Nutrition Programs. When you have a sponsor 
doing Summer Nutrition and them somebody else doing After-
School, the rules are all different, CACFP, they are all 
different. People don't do they because they are just so 
difficult to navigate. We would put all the out-of-school meal 
programs together, create one program with identical 
eligibility procedures, identical reimbursement, and 
administration. It could really streamline these programs, save 
money, and feed kids at the same time. We don't need a mishmash 
of programs right now. We need one whole program that will do 
the best thing and would be the best economically, as well.
    So those are my recommendations. Thank you very much.
    [The prepared statement of Ms. Nolan can be found on page 
84 in the appendix.]
    Chairman Harkin. Thank you very much, Ms. Nolan.
    Let me pick up on what you were just saying there. You are 
saying that we ought to put together the Summer Feeding 
Program, After-School Programs, the supper programs--what else 
am I missing here----
    Ms. Nolan. CACFP.
    Chairman Harkin. Right, the Adult and Child Care Programs, 
put them all together sort of under one guideline, one 
operational kind of a program. Is that what you are saying, 
that they should all be together?
    Ms. Nolan. I am saying that we are at a position now where 
kids aren't eating on weekends. They are not eating during 
school vacations. And so if we can put them all together and 
have one common program where kids can then get these meals 
during the year and everything is--right now, we have sponsors 
who--with the After-School Program, and I know in CACFP with 
shelters, I have talked with people in homeless shelters and it 
is just too difficult for them to keep all the--to make sure 
that they have all the little things that they need to have to 
give to our State Department of Education to get the funding. 
And so if we can have something that is just everybody could 
have it together, I think the administration would be easier, 
kids would eat, and more people would be sponsors.
    Mr. Hecht. May I add an example to that?
    Chairman Harkin. Sure.
    Mr. Hecht. We have a private program in California that has 
operated since the last reauthorization in which sponsors of 
summer food are permitted to go on serving snacks during the 
school year to children under the summer food rules so they 
don't have to grapple with two sets of rules and regulations 
and reimbursements. The numbers of sponsors has gone up 
enormously. The number of kids participating has gone up 
enormously. If we had a community-based program and a school-
based program, just two programs instead of as many as we have, 
it would be enormously better and cheaper with money that could 
then get poured into nutrition.
    Chairman Harkin. Hmm.
    Mr. Hecht. It was a recommendation that was made several 
administrations ago but didn't go anywhere, but it is terrific.
    Chairman Harkin. I will take a look at that. Also, you 
mentioned about in the Summer Feeding Program that a lot of 
times, what attracts kids is not the food, it is the other 
ancillary activities, swimming and games and things like that. 
I am sure you are not saying that the food doesn't have some 
part of it, but there is another aspect to this. If that is so, 
then what kind of suggestions would you have that we might 
institute that would draw kids in for the Summer Feeding 
Programs? I mean, we have the Ys, for example, YMCAs all over 
the country that are really involved in wellness programs. They 
have embarked on this several years ago. So would that be 
something that could be a part of this? Maybe churches could be 
involved in this, too? I am just kind of searching. How do you 
promote all these activities that then you can get food to 
these kids?
    Ms. Nolan. Our grant program is called ``Operation 
Participation'' as a way--because we want kids to participate, 
and what we found is that if you get this little--something to 
get them, they will tell their friends who will then come. And 
simple things like in one community, we had police officers and 
firefighters come every Friday and read to them, and there was 
this big trunk and it was the mystery of what was in the trunk. 
And at the last day, they would read some clues as to what was 
going on and the kids would have to guess. And at the last day 
of the feeding program, they opened up the trunk and they all 
got T-shirts that said, ``I participated in the Summer Feeding 
Program.''
    The raffle that I talked about, we got kids who came 
because they wanted that bike so badly. There were two bikes 
and they wanted them so badly that they came to make sure that 
their names were in the raffle.
    We have had art supplies that have come, and so we have 
really been able to--kids will come and do art because they 
know that that is there. And we can streamline eligibility with 
the Federal funding for the summer programs using the 21st 
Century, you know, doing the 21st Century Program. So we can 
use that as a way to get kids.
    But what we found is, and I think you are right, the food 
is certainly a pull, but they want a whole experience, and this 
is a way we--what we have done is been able to build the 
community into these summer sites, so we have the police 
officers come, the firefighters. We have had raffles where kids 
come and they are able to do a raffle.
    Chairman Harkin. I guess what is on my mind is I am 
thinking that since we are limited in what we can do here, we 
can provide the funding and we should increase the funding for 
the Summer Feeding Program, the Child and Adult Care Program, 
After-School Programs, but should we somehow link it to certain 
activities that the local community has to engage in to be able 
to participate, in other words, providing those kinds of 
sports, activities, things like that for kids rather than just 
setting up, as I have seen in some places where they just go to 
a park and they bring a lot of food and kids come to the park 
and they can have a lunch or something, which I don't think 
works very well. In other words, encouraging local communities 
to think about how they do the things you are talking about, 
getting the local firefighters, police, and stuff like that 
involved.
    Mr. Hecht. Let me sharpen the question just a minute. In 
California, over 80 percent of the children who eat summer food 
meals eat them at school, during summer school generally, and 
we are starting to see that beleaguered school districts aren't 
going to be able to offer as much summer school as they have in 
the past, so there are going to be more children unanchored to 
a program or a school that gives them a summer food meal. So 
there is a serious problem, I think increasing this coming 
summer, at least in California, of children who are not going 
to be close by some activity, either academic or recreational, 
where we can plop a Summer Food Program.
    Ms. Nolan. I also--I think that if we could do--if there is 
some kind of a pilot that we could do to try this out, maybe 
State by State and having where they are connected, it would be 
helpful. I think that it would be something that you would see 
some more significant usage of the program.
    Chairman Harkin. And I also want to see what role we have 
for the Ys around the country, because they are really into 
wellness and promoting wellness, and perhaps this is something 
that we ought to be looking at as part of this.
    Ms. Nolan. Boys and Girls Clubs, I think.
    Chairman Harkin. And Boys and Girls Clubs, too. Yes, Boys 
and Girls Clubs, too.
    Senator Chambliss?
    Senator Chambliss. Thanks, Mr. Chairman.
    I like your idea, Ms. Nolan, of trying to create some sort 
of umbrella out there. What we tend to do as policymakers here 
in Washington all too often is that we create these programs 
and they are all great programs. You all have talked about your 
individual ones. All of a sudden, somebody comes in with 
another idea and we create a fourth panelist on this panel all 
of a sudden who has a great program and we throw money at it.
    Mr. Hecht, you make a great point that throwing money at it 
is not necessarily the answer to it. Certainly everybody can 
use more funding, but if you had them all under one umbrella 
and you restructured the programs so you don't have the 
overlap, you are going to wind up saving a lot of money to be 
able to be spent on additional meals and what not. So I think 
are some very good ideas that you all have tossed out there.
    Ms. Nolan, it is pretty obvious that what you are doing 
with kids in your program is you are letting them have fun. If 
kids have fun, they are going to show up.
    Ms. Nolan. Right.
    Senator Chambliss. There is probably a lot of peer pressure 
bringing in other kids, too, if they know they are having fun. 
So obviously you are doing a lot of the right things.
    Dr. Paige, I was curious about in your statement that 
everybody at 185 percent of poverty level ought to be 
automatically enrolled. What you are saying there is that all 
of those folks are eligible now. They are just not enrolling. 
And you are not talking about an expansion, you are just 
talking about making sure that folks that are eligible do get 
enrolled again, which I am sure there are probably some of 
those parents who, when they leave the hospital, maybe they 
don't know about the program or some of them want to do it on 
their own rather than depending on the government. But that is 
an interesting concept you throw out there, that it will save 
us money in the long run if you do have more families 
participating in the program.
    Mr. Paige. Currently, Senator Chambliss, there is not a 
sufficient appropriation to meet the entire need were we to be 
successful through our outreach efforts to bring all of the 
eligibles into the program. So my own view is that not only 
will the nutritional risks be addressed, but we will have the 
opportunity to develop a more comprehensive preventive program. 
It is hard to measure the prevention, but when we are talking 
about newborns and we are talking about pregnant women, there 
is a strong, compelling case to be made that prevention is as 
important as the remediation that we attempt to do by 
identifying nutritional risk.
    So it is from that perspective, that broad-based public 
health preventive perspective, and it is not simply empty 
rhetoric. We know through the data that when we can begin to 
provide a nutritional infrastructure, we can start with a 
comprehensive program prenatally. We can deal with the range of 
obstetrical and behavioral problems. We can start this 
nutrition education. We are talking about obesity and we are 
talking about where to start, as I mentioned quickly in my 
prepared comments.
    But my own view is that we need a vertical, comprehensive, 
integrated, coherent program of all of the nutritional 
programs, not just WIC. What we have now is a fractured system. 
It is a good system. WIC is a wonderful system. But it needs to 
be integrated with Head Start and it has to have a linkage into 
the schools. We have to have, as was mentioned earlier, a 
standard, unified approach with regards to qualifying as well 
as reducing the burden on the client to continue to qualify for 
many of these programs. We can be much smarter about it. We can 
integrate it. We can move to a streamlined approach.
    We can locate these programs with health programs so that 
we are dealing in a more comprehensive, unified approach to 
deal with the nutritional risks that exist within the 
population that we are serving. We can make effective use and 
economical use of the personnel back and forth between this, an 
electronic system that would communicate back and forth in 
terms of immunizations, in terms of social services.
    We have complex problems here. We have poverty that feeds, 
if you will take the metaphor, the malnutrition that exists and 
we have to be clever about it. It was mentioned by my 
colleagues here that we must have a more comprehensive, 
effective system, particularly as money becomes less available, 
we have to be smarter about the way we run these programs. We 
have to start pre-conceptionally in the schools with our young 
women and young men in terms of health issues, and we have to 
address the--obesity is not an isolate. Low birthweight is not 
an isolate. These are part of a continuum that exists within 
the community and we keep looking at it.
    We are the best country in the world. We really have the 
best programs in the world. But we are not clever about the way 
we apply them in our lower-tier population that needs a 
consistent, coordinated message that moves over time, because 
after two or 3 years, we have our children graduating from WIC 
and they are going into school and they get a different 
message, and they get a different message in every State and in 
every community with respect to good nutrition. It is a more 
amorphous concept than simply saying good nutrition.
    So we need Federal standards and guidance with regard to a 
unified message. We need a streamlined, integrated approach. We 
need a vertical, coherent, logical approach that is built on 
sound nutrition science with a core that is, I would say, 
federally suggested with the embroidery around it in terms of 
the expression of the communities and the States that we are 
dealing with and we have not been clever enough to accomplish 
that, and it is very cost inefficient. We are losing tremendous 
amounts of money.
    The client burden--forget even the client burden. Going 
from one doctor to get a hematocrit and then going to--a blood 
count, and then going to another place to get another blood 
count, and then having to carry that information, that is not 
an efficient system and it doesn't lead to good care, either.
    Senator Chambliss. Mr. Hecht, your comment about one in 
four children are obese before entering kindergarten is an 
interesting statistic, because child obesity obviously is a 
problem that all of us are concerned about now, and the fact 
that it does go up rather than going down is also pretty 
alarming. Is there a direct correlation between that statistic 
and the economic strata which those children come out of?
    Mr. Hecht. Yes and no. I wish I could give you a simpler 
answer. There is no question but that it costs more to have 
healthier food and that the families with less money are having 
a hard time helping their children have healthy diets. On the 
other hand, as Dr. Paige mentioned, there is obesity at every 
income stratum and it is not isolated to the low-income areas, 
but the causes of it seem clearer at lower incomes and the 
consequences seem much more severe.
    Senator Chambliss. Last, Mr. Hecht, you mentioned in your 
testimony and in your written statement that this paperwork in 
your program is a real problem. Is there any way for your 
providers to go online to do this versus having all this 
paperwork to complete? And second, what can we do to eliminate 
that paperwork? I have no idea what it is or what all the 
requirements are, but what can we do about it?
    Mr. Hecht. That is a very welcome question. Yes, there are 
ways that our providers can begin to use computers to go online 
to file some of the information that they need to. The next 
group up, the sponsoring organizations, are doing that much 
more. Some of the providers, particularly if they are in the 
family child care homes, have difficulty either owning or being 
adept at some of the computer technology.
    The paperwork is extremely burdensome in the family child 
care homes and in the centers. There has been a Paperwork 
Reduction Task Force meeting. Some of those recommendations 
have been met, some have not. It ought to be carried on. There 
are some questions that are asked of providers, if they serve 
the same number of children day after day, is that real or are 
they making that up, which is sort of a blunt instrument for 
trying to make sure that there are no fraudulent claims being 
made in child care. But the paperwork requirements that have 
been put in place to try to stop that are really very blunt and 
are burdensome to the providers and to the sponsors and not 
very adept at catching any problem if there is a problem.
    Senator Chambliss. Thanks, Mr. Chairman.
    Chairman Harkin. Thank you very much.
    Senator Casey?
    Senator Casey. Mr. Chairman, thank you very much, and I 
want to thank Senator Klobuchar for letting me jump the line 
here. I am grateful for that.
    I was looking at some of the particulars, Dr. Paige, of 
your testimony as well as both of our other witnesses and some 
of the numbers in here are just staggering and worthy of 
repetition many, many times, even though it is bad news, 
because we need this information to focus us on the urgency of 
this.
    The 13 million American children below the age of 18 living 
in families with incomes below the poverty level is a stunning 
number in and of itself. The percent of children in poverty 
increases to 21 percent in children below the age of five. The 
section on low birthweight, where you are highlighting that 
problem, but you also have some good news there. Based upon the 
data, the WIC Program reverses many of the negative outcomes 
that we are talking about.
    And then, of course, under the section on infant mortality, 
this line I have never seen before and it really--we know it is 
true, but we don't see this very often, that the disease burden 
among the survivors is lifelong.
    Mr. Paige. Yes.
    Senator Casey. And it is just staggering what our challenge 
is. So it leads to my question on the WIC Program. We have, as 
we know, we are in the midst, I should say, of a terrible 
economic crisis, a lot of families living through that trauma 
and we have limited budgets and limited resources. But I guess 
I would ask you, Doctor, if you could, and I know it is 
difficult to do this, but to rank some of the recommendations 
that you make in terms of the three most urgent or the few that 
are most urgent in light of the need and the gravity of the 
problem, but also in the context of the budget realities we 
have.
    Mr. Paige. Thank you, Senator Casey. Thank you for 
highlighting those very significant numbers. I might add that 
those numbers that you have just read escalate dramatically in 
our minority populations. In female-headed households in 
Baltimore or in Washington, we are looking at 60 percent 
poverty. So these are extraordinary problems that we are 
dealing with nationally.
    I would also like to comment briefly, if I may, and I will 
be very brief, regarding the lifelong burden. Over the last 
eight to 10 years, the research has been prolific in the area 
of fetal growth restriction and low birthweight, the result 
thereof, and adult disease burden. The adult disease burden is 
in terms of shifts in the internal physiology--anatomy and 
physiology of the fetally growth restricted that results in 
heart disease at age 50 and 60 and results in diabetes and 
results in a number of disease burdens that up until very 
recently we thought were very isolated, circumscribed, age-
specific problems, and we are much wiser now.
    So when we quote statistics regarding the dollars saved in 
the neonatal intensive care unit, that really is just the 
beginning. We have the disease burden just moving through time. 
And underpinning that are the congenital anomalies that exist 
as a result of the inadequate nutrition and environmental 
hardships that exist that are continuing.
    So now to your question. I really can't answer the question 
entirely. I can just say philosophically, my own view is to 
start at the beginning to try to maximize and optimize the 
embryo, where we have many, many problems. We don't think of 
the embryo. We think of the fetus and we think of 30 weeks and 
34 weeks, where there is a more tangible human experience. But 
the embryo is undergoing enormous development and requires the 
best nutrition. So we have to get our women into the program 
very early.
    We have to increase education, not just for our poor women, 
but for our population in general. These are not problems 
unique to this population, they are just escalated in this 
population.
    So my own view is to start peri-conceptionally, move 
through pregnancy and infancy into childhood. But you note in 
my testimony, I try to make the point that in the one-to 4-
year-old, these are youngsters who are already walking. They 
are cute, but they no longer have that intense position in the 
household as a newborn, so it is easy to forget them and the 
risks that they face in terms of the nutritional factors that 
are required for interaction, for cognitive development. So we 
pay a penalty if we sacrifice our one-to 4-year-olds and only 
concentrate.
    So it is a complex question. There is a hierarchy. My own 
view is to maximize, optimize fetal growth, pregnancy, and the 
early infant period, and I think we need to address the 
preventive elements of the WIC Program in this in terms of now 
only the food, which is absolutely critical, it is the 
substrate that makes it all work, but the education and the 
continuing education that exists, and you heard in my earlier 
response, I see it as a vertical issue. I see that we have to 
protect this newborn right through the one-to 4-year age, right 
through Head Start, right into school. We need it in a coherent 
manner and that would be an attempt at answering your question, 
Senator.
    Senator Casey. Thank you, and I know I am over time, so I 
will just present this to Ms. Nolan as something we will be 
sending to you. I have worked hard on the Summer Food Program. 
In our State, we have a large portion of our State which is 
rural, and I will ask you a question for the record that I will 
preview now. I just ask for your recommendations about how to 
make that program more effective in rural areas, the Summer 
Food Program in rural areas. But we are about a minute-and-a-
half over, so we will submit that for the record. Thank you 
very much.
    Chairman Harkin. Thank you.
    Senator Klobuchar?
    Senator Klobuchar. Thank you very much.
    Thank you to all of you for your good work. I was very 
interested, Mr. Hecht, and kind of shocked at the statistic 
that you put out there on the two-to 5-year-olds with 25 
percent of them being obese or overweight. Could you explain, 
and I know you talked a little bit demographically earlier, but 
could you explain, just take a little time to explain why you 
think this is happening?
    Mr. Hecht. Well, I think there are two parts to it. One is 
calories in and one is calories out. I think it is as simple as 
that, that the children are not getting movement either at 
child care or at home. There is a tremendous amount of screen 
time, as I am sure you know, and every reputable body says 
there shouldn't be any before a child is one, one or two, and 
then there should be perhaps an hour of limited quality 
education type of TV if there is any. But in so many homes, the 
TV is just on all day.
    And on the food side, as we all know, Adam Jernowski [ph.] 
has done good studies, others, as well, that show that 
healthier food is more expensive to purchase, and so it is--and 
in some cases, less accessible. So it is both access and 
affordability that makes it very difficult for low-income 
families to feed their children the kinds of food they would 
like or for child care providers to have the kinds of food they 
like.
    On the other hand, we found a very interesting thing which 
we are still developing, but I think it is solid, is that the 
families that paid more for child care got less in terms of 
nutrition because they weren't always going to the programs 
that had the Child Care Food Program with the Federal 
reimbursement. So for all the bashing, the Child Care Food 
Program is a good program. It needs to get better, but it is a 
good program.
    Senator Klobuchar. Very good. Thank you. You know, speaking 
of that program, are you recommending that we change the law to 
mandate that--because you were talking about some of the issues 
with it--that the changes for child care sites, that these 
changes for child care sites you have suggested, that it should 
be a mandate in terms of receiving the nutrition dollars?
    Mr. Hecht. Yes, I do.
    Senator Klobuchar. And what do you think would be the best 
recommendations to try to change the program?
    Mr. Hecht. I would go in two directions. One are the, what 
I think are modest recommendations with regard to the quality 
of food, that we really borrow from the WIC food package change 
and increase fresh fruits and vegetables, whole grains, get 
water into those kids, low-fat milk, and limit sodium, salt--
sodium and sugar and fats. And then the surrounding 
environment, which includes some of the screen time, physical 
activity, not having certain kinds of food around where the 
children are, what we now referring to as foods of minimal 
nutrition value in the schools. There are just some things 
everybody knows kids shouldn't have and those ought not be 
there. I think those are practical, implementable suggestions, 
in addition to increased reimbursement, of course.
    Senator Klobuchar. On the other thing, when you were 
talking about the early childhood on and the mothers and 
whether or not some of these kids are just preprogrammed, which 
is a scary thought, based on the nutrition they have received 
before they were born, I listened to that because I think that 
is an issue that we see that just makes it so hard for these 
little kids.
    Dr. Paige, you wanted to----
    Mr. Paige. I was just going to jump in and say, 
paradoxically, many of the low birthweight infants are at risk 
for obesity because given their reduced size, organ size and 
shifts in hormones and so on--I have lectures here that I won't 
bore you with--given those shifts, when they are born into a 
calorie-abundant environment, they tend to increase weight more 
quickly and their feedback systems with respect to satiety and 
control are also in many ways interfered with. And as a result, 
we have this paradox of low birthweight, and it may account--
the question was asked earlier why demographically would we see 
a tilt perhaps in this population of economically 
disadvantaged, and this is arguably an important issue that is 
being pursued scientifically. But there is enough evidence at 
the moment to at least underpin the logic of it, yes.
    Senator Klobuchar. When you talked, Dr. Paige, about how 
you can make it easier for people, and clearly how we do a 
better job here is to get this nutrition information and get it 
out there and make it easily as accessible as possible to low-
income families from the very beginning, so you talked about 
how difficult it is to access the information and trying to do 
it on a site basis. Could you just elaborate a little on that 
in terms of making it--what would be your dream of how to make 
this accessible to low-income mothers?
    Mr. Paige. Well, we have been very clever about doing this 
internationally in terms of providing star power and other 
agents of change within a community with regard to musicals and 
other elements that are quickly identifiable by many of us in 
the population. We need also that for attention. But then a 
consistent message, as well. We have a very fractured message 
across the spectrum of services that we provide.
    So we need that reinforcement, and then my dream--I am 
coming back to the same theme, though--is that we are working 
in a cooperative, integrated manner with the food programs that 
are out there, with the school program, in a consistent 
message, as well. There are conflicting information. We see in 
the newspaper frequently, even for us on an upper-tier, maybe, 
suddenly the scientific information or the food information has 
changed and the sands have shifted under us. It is both proper, 
but this is happening on a continuing basis in terms of the, I 
will say it again, the fractured message that exists out there.
    I think I will stop there and get your response.
    Senator Klobuchar. OK. Well, I am out of time to do my 
response. Could I just ask one more question, Senator Harkin? 
It was actually the question that Senator Casey was going to 
ask you, Ms. Nolan, about how you would replicate this idea on 
a rural basis.
    Ms. Nolan. Well, there--one wouldn't believe it, but we do 
actually have a fair amount of rural poverty in Eastern 
Connecticut and one of the things that has been an issue is the 
transportation. I think that if there is a way that we can 
increase transportation to those places, some people say that 
we can increase the time in which--or lessen the time that the 
food has to be there so that maybe somebody can drop it off and 
then have the kids come in, or have it for a longer time. There 
are a number of things. There are a number of people who have 
worked on this and I will be happy to get you something really 
written up that explains it fully.
    Senator Klobuchar. Thank you very much.
    Ms. Nolan. You are welcome.
    Mr. Paige. May I just add, Reverend Greenaway reminds me 
that the National WIC Association is launching on Tuesday a 
partnership with Sesame Workshop, which is specific to my 
general comment regarding utilizing the various outlets of 
communication and advertising and----
    Senator Klobuchar. So how are they doing that? Are they 
showing Sesame characters eating spinach?
    Mr. Paige. Well, we will both watch on March 10.
    [Laughter.]
    Senator Klobuchar. That is good.
    Mr. Paige. But whether that is or is not successful, we 
need an approach that addresses it in the language, in the 
venue that people are comfortable and operate with.
    Reverend, do you want to answer? Are they going to eat 
spinach?
    Rev. Greenaway. Well, we have a partnership with Sesame 
Workshop which will provide Healthy Habits for Life kits, which 
are a combined video and reading material, educational tool for 
WIC families that emphasizes ``eat a rainbow,'' so all of the 
fruits and vegetables. Talking Broccoli will be there and 
Cookie Monster tomorrow. Cookie Monster will be talking about 
sometime and anytime food. And those who have little children 
know that when they go to the grocery store, they go, ``Oh, no, 
Mommy, that is sometime food, but carrots are anytime food.''
    It is that kind of nutrition message that we are trying to 
reinforce with Sesame Workshop that we have been communicating 
within the WIC clinic all along, but now we have a great 
collaborative partnership to do that. We are putting in the 
hands of WIC families already five million of these Healthy 
Habit kits, which include a DVD that they can play at home and 
they are already a big hit.
    Senator Klobuchar. OK.
    Mr. Paige. I would add that within the WIC Program, as 
well, we are looking for ways to use internet-based education 
and other efficient methods that use modern technology to 
reinforce the message, provide DVDs and a range of information 
so that there can be an interactive chat room on the internet. 
These are--each one will not solve the problem, but in a 
coordinated effort that provides this broad-based approach, we 
can make progress.
    And as I said, we have been very successful, the U.S. has, 
in achieving this internationally, but we haven't been clever 
enough to apply it consistently here in our own homes and our 
own country.
    Senator Klobuchar. Thank you very much.
    Chairman Harkin. Thank you all. I just have one other area 
that I would like to cover with you, Dr. Paige, and that is the 
area of breastfeeding. Twenty-eight years ago this year, when I 
was a member of the House, I was one of the honorary co-chairs 
of the National Breastfeeding Coalition. That group had formed 
to protest the activities then of the Nestle Corporation in 
terms of their provisions of infant formula to not only poor 
families around the world, but also how they were providing it 
to mothers in hospitals. As soon as they gave birth, they got a 
nice package of infant formula.
    That coalition was, I think, fairly successful at that time 
in terms of the boycott and Nestle agreed to change a lot of 
its practices at that time, in the mid-1980's, although I 
understand that now it has crept back in, that there are still 
these packages given to mothers in hospitals as soon as the 
child is born. They get these packages of infant formula and 
things like that. I don't know how extensive that is, but I 
have heard that it has kind of crept back in.
    And since that time, even in my own family, we have been 
heavily involved in promoting breastfeeding. But we found, as 
you kind of alluded to, I think, and that is among low-income 
women, the incidence of breastfeeding is the lowest. Among 
higher-income women, it is the highest. So what are the 
barriers? What are the barriers getting low-income women 
focused more on breastfeeding?
    Mr. Paige. What is interesting is that if you look at the 
data in the 1960's and 1970's--and let me also say I have not 
only been aware but a strong supporter of yours at arm's length 
in terms of everything you have done in this regard. In the 
1960's and 1970's, through the early 1970's, the level of 
breastfeeding among the low-income population was quite high. 
In the course of a generation, a generation and a half, we have 
reversed this.
    It is the attraction of formula, and this attraction starts 
in the hospital when there is a discharge pack. Our colleagues 
in the infant formula business are clever about this. They say, 
yes, breast is best, but when you need to go out for an evening 
or so, and slowly both the commitment as well as the lactation 
begins to erode and you have a quick move to formula.
    Yes, in the hospitals they are now giving out infant 
formula packs. Our own data shows clearly that there is a 
marked difference between those who receive the pack versus 
those who do not in terms of the rapid decrement in 
breastfeeding. This is a problem that has resurfaced.
    I am all for enterprise and entrepreneurial activity, but I 
do think we have a responsibility here to our newborns to 
eliminate that practice.
    Chairman Harkin. You talked about peer counseling. I think 
that is extremely important--extremely important.
    Mr. Paige. We have been--thank you for raising that, 
Senator Harkin. We at Hopkins have been working aggressively in 
this area and the data shows clearly that the--not just the 
individuals, but the clinics that have peer counselors present 
do much better in terms of initiation and duration.
    Chairman Harkin. Yes.
    Mr. Paige. This program is an extraordinarily strong 
program.
    Chairman Harkin. The other thing, Dr. Paige, is that there 
has been a shift. In the 1960's and 1970's, fewer women in the 
lower economic strata were employed. They were at home. That 
shifted because of the erosions of the economy and their 
husbands' pay, things like that. There are more and more women 
in the workforce. And what has happened is--let me take an 
example.
    My oldest daughter has a very nice job in California. Her 
company provides all kinds of benefits for breastfeeding. They 
have a room. They have refrigeration. You can pump. They just 
provide all that kind of stuff. But she doesn't have a minimum-
wage job. See, most of the low-income women, they go to work at 
7-Eleven or Casey's or in a department store, things like that. 
They just don't provide that kind of help, so they are caught. 
They may want to breastfeed, but they don't have the ability to 
do so.
    Mr. Paige. Yes.
    Chairman Harkin. So what I am hoping is that we would--I 
hope this administration, I hope the Obama administration and I 
hope others will start talking about a national effort to 
provide support for new mothers in the workplace so that they 
are able to breastfeed their children. We just don't have that 
at all in this country and we need that national effort. It is 
also the workplace that we have got to start looking at. So 
there are a lot of areas. I hope you will start looking at 
that, too, of how we change that attitude, that mindset that we 
have in this country.
    Mr. Paige. Yes.
    Chairman Harkin. I mean, I have seen personally and I have 
heard many stories of women who take their children someplace, 
maybe a restaurant, they are breastfeeding, and they are told 
to stop.
    Mr. Paige. Let me just jump in on that. My doctoral 
student, who is now my colleague, Dr. Gross, was at Toys 'R Us. 
This is in the State of Maryland about eight or 9 years ago. 
She was breastfeeding in Toys 'R Us, of all places, and she was 
asked to leave. She then went on a tear. She was angry and 
educated and she got the law changed in the State of Maryland 
that someone can discretely or appropriately breastfeed in 
appropriate establishments.
    You have raised the points that have been at the center of 
my concern for many, many, many years in terms of how we begin 
to change the culture, the workplace culture and even the 
community culture, because there is a lack of receptivity to 
breastfeeding, whether it is on a train or at home. Some of the 
strongest negatives exist within the family itself. So we have 
a great deal of work to do in this particular area.
    The peer counselors have been very effective in 
breastfeeding and I think they can also work in other areas of 
WIC in terms of even the issue of obesity, in terms--our 
communities tend to respond more immediately to the 
exhortations of folks from the community. They are a powerful 
force.
    Chairman Harkin. We have got to focus on this, because 
President Obama has suggested and has supported this visiting 
nurse program and put it into his budget, by the way, for next 
year, which is laudable, and that is visiting nurses to go to 
homes, low-income, poverty homes where we have pregnant 
mothers-to-be and to work with them on their nutrition and 
stopping smoking and don't drink alcohol and that kind of peer 
counseling. All of that is well and good. Hopefully, we can try 
to expand that beyond that to also as an encouragement for them 
to breastfeed, at least for the initial stages of the baby's 
life.
    Mr. Paige. The decision to breastfeed is really made 
prenatally, usually, the data suggests, in the seventh or 
eighth month, as the realization, recognition of a new life to 
be born and a responsibility, and we need to bring in our 
obstetrical community, our nursing community. As I said several 
times, we need to be clever about it and we need to shape this 
in a way that is also consistent.
    I would add, not a polemic but just a fact that many of the 
WIC women, while they initiate, the numbers begin to approach 
Healthy People 2010 goals, many--a large number abandon 
breastfeeding within the first three or 4 weeks. So those who 
do elect do not have a--we do not have the structure either in 
our health system or in WIC or in any of the social services to 
reinforce that decision on the part of the mother and she 
becomes quickly discouraged. There is no support internally or 
externally and there is abandonment.
    Chairman Harkin. Well, listen, thank you all very much. 
This has been a great panel and I thank you for your leadership 
in this area, all of you, in this whole area. We invite your 
continued input and advice to us as we develop this 
reauthorization of the child nutrition bill.
    I thought the two panels were very good. We focused on the 
school-based programs and we focused on the non-school-based 
programs, Child and Adult Care, WIC Programs, After-School, 
Summer Feeding Programs, and we have to think about how we 
streamline them, make them more effective. And one word I would 
add is how we leverage, leveraging money. In other words, if we 
are putting things out there, what can we get communities then 
to add on to in terms of leveraging those dollars a little bit 
better out there.
    But thank you all very much and the committee will stand 
adjourned until the call of the Chair.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             March 4, 2009



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
